<html>
<title> - THE STATUS REPORT ON THE NPOESS WEATHER SATELLITE PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        THE STATUS REPORT ON THE
                        NPOESS WEATHER SATELLITE
                                PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2007

                               __________

                           Serial No. 110-36

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
35-707 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
PAUL KANJORSKI, Pennsylvania         TOM FEENEY, Florida
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
MICHAEL M. HONDA, California         DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee, ex officio   RALPH M. HALL, Texas, ex officio
                  JEAN FRUCI Democratic Staff Director
            JAMES PAUL Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
            AMY CARROLL Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                              June 7, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    12

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    13
    Written Statement............................................    14

Prepared Statement by Representative Mark Udall, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    14

                               Witnesses:

Dr. John H. Marburger, III, Director, Office of Science and 
  Technology Policy, Executive Office of the President
    Oral Statement...............................................    16
    Written Statement............................................    17
    Biography....................................................    20

Mr. David A. Powner, Director, Information Technology Management 
  Issues, U.S. Government Accountability Office
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    35

Brigadier General Susan K. Mashiko, Program Executive Officer for 
  Environmental Satellites, United States Air Force
    Oral Statement...............................................    35
    Written Statement............................................    37
    Biography....................................................    40

Discussion
  Restoring Orphan Sensors.......................................    41
  Risk of Cost Overruns..........................................    43
  Avoiding Cost Overruns for Future Programs.....................    44
  Data Gap Concerns..............................................    45
  Interagency Collaboration: Drawbacks...........................    46
  More on Restoring Orphan Sensors...............................    47
  More on Data Gaps..............................................    49
  Impact on the Earth-observation Program........................    50
  Project Management.............................................    52
  International Collaboration....................................    53
  QuikSCAT.......................................................    53
  General Mashiko's Departure....................................    55
  Program Status.................................................    56
  More on General Mashiko's Departure............................    57
  Technology Transfer............................................    58
  More on Data Gap Concerns......................................    59

              Appendix: Additional Material for the Record

Polar-Orbiting Operational Environmental Satellites: 
  Restructuring Is Under Way, but Technical Challenges and Risks 
  Remain, U.S. Government Accountability Office, April 2007......    64


       THE STATUS REPORT ON THE NPOESS WEATHER SATELLITE PROGRAM

                              ----------                              


                         THURSDAY, JUNE 7, 2007

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                        The Status Report on the

                        NPOESS Weather Satellite

                                Program

                         thursday, june 7, 2007
                          1:00 p.m.-3:00 p.m.
                   2318 rayburn house office building

Purpose

    The Subcommittee on Energy and Environment meets on June 7, 2007, 
to continue oversight on the unsettled National Polar-Orbiting 
Operational Environmental Satellite System (NPOESS). The Government 
Accountability Office (GAO) will release the latest report on this 
critical weather monitoring platform requested by the Subcommittee, and 
the Program Executive Officer for NPOESS will respond to the findings 
and recommendations. Additionally, the Director of the Office of 
Science and Technology Policy (OSTP) will respond to questions about 
the status of sensors for tracking climate and so-called ``space 
weather'' phenomena that were removed during the recent program 
restructuring.

Witnesses

Mr. David Powner, Director, Information Technology Management Issues, 
Government Accountability Office: Mr. Powner is the head of the GAO 
team continuously monitoring the NPOESS program since 2001. He will 
present their latest report that discusses the effort to strengthen the 
management of the NPOESS program and evaluates the realistic cost 
estimate for the revised program. The report also examines the 
continuing risks that challenge the execution of the program.

Brigadier General Sue Mashiko, USAF; Program Executive Officer for 
Environmental Monitoring: General Mashiko has been in the post of 
Program Executive Officer for the NPOESS program since November 2005. 
The position was established in the wake of the program's restructuring 
to evaluate the performance of the Integrated Program Office (IPO) 
handling the system acquisition and to serve as the arbiter for 
awarding performance incentives to Northrop Grumman, the program's 
contractor. General Mashiko also took on the responsibility for 
external relations with the Executive Committee comprising the heads of 
the three agencies (NOAA, the Air Force and NASA) contributing to the 
program.

Hon. John Marburger, III, Director, Office of Science and Technology 
Policy: OSTP has been managing reviews by NASA and NOAA of the sensors 
removed from NPOESS to identify other ways to fly the instruments and 
maintain the data sets. Dr. Marburger will discuss the process involved 
in these reviews, the results to date, and how these reviews will 
determine the alternative plan for preserving climate and space weather 
observations.

Background

A Short History of NPOESS
    For decades, the United States has maintained satellites in orbit, 
looking down at Earth and gathering information that allows us to track 
and forecast weather. These satellites operated in both geostationary 
orbit (where they move fast enough to keep pace with Earth's rotation, 
thus staying in the same place above the equator and seeing an entire 
hemisphere at once) and in polar orbits (allowing them to pass over all 
points on Earth as the planet rotated underneath). Both the Air Force 
and NOAA were operating polar satellites to satisfy their diverse user 
needs. In 1993, the decision was made to combine both programs into a 
single system, and thus the National Polar-Orbiting Operational 
Environmental Satellite System (NPOESS) was born.
    In 2000, the NPOESS program anticipated purchasing six satellites 
for $6.5 billion, with a first launch in 2008. Following financial 
problems, a new program baseline was issued in 2004, which raised the 
expected acquisition cost to $7.4 billion. By November 2005, the 
program office determined that it was likely that NPOESS would run over 
that estimate by at least 25 percent, which triggered the Nunn-McCurdy 
review by the Department of Defense. In order to continue the program, 
it was necessary to report to Congress that:

        <bullet>  The program is essential to national security;

        <bullet>  No alternative program provides the same or improved 
        military capability at lower cost;

        <bullet>  The new cost estimates are reasonable; and

        <bullet>  The program's management is adequate to manage and 
        control costs.

    The NPOESS Program was recertified on June 5, 2006, but there were 
some significant changes. The estimate for acquisition cost rose to 
$11.5 billion (and, as GAO notes in its report, there is an additional 
$1 billion to cover operating costs, making the total life cycle cost 
$12.5 billion). Only four satellites will be built, with the first 
launch now scheduled for 2013. A major sensor, the Conical Microwave 
Imaging Sounder (CMIS), was removed because it seemed unlikely that the 
technical issues in its design and construction could be overcome. A 
new competition is to be conducted for an instrument whose capabilities 
will fall much closer to existing technology. The U.S. would fly 
satellites in only two, not three, polar orbits; data from the third 
orbit would now be the responsibility of European satellites.
    The other major decision was to remove several sensors. Some would 
focus on the study of Earth's climate. Others monitor phenomena 
generated by the Sun that affect the Earth's magnetic field and can 
play havoc with power lines, airline flights over the polar regions and 
satellites. Scientists studying climate were particularly concerned. 
Detecting the small changes in the ocean and atmosphere that signal 
climate changes is critically dependent on data collections that cover 
decades in time. Without the climate sensors on NPOESS, some of the 
most basic climate data would no longer be available. This has been the 
focus of articles that appeared in the last day regarding the NPOESS 
program and the loss of climate sensors from the satellites.
    Central to the persistent problems in the NPOESS programs are the 
major sensors and the program's management. The cancellation of CMIS 
came about because the weight and size kept growing as the Boeing 
instrument team struggled to meet Army requirements for determining 
soil moisture. Even worse was the Visible/Infrared Imager Radiometer 
Suite (VIIRS), where sub-component deliveries were behind schedule, 
testing of various items was harder and took longer than expected, 
ground support equipment was not working properly, and independent 
reviews of Raytheon management resulted in removal of the entire 
instrument management team. VIIRS is the primary instrument on NPOESS; 
it will contribute data to more of the expected products than any other 
sensor. The Integrated Program Office, lacking sufficient reserves, 
attempted to deal with the problems by redeploying resources from the 
other instrument contracts, upsetting their performance. Last year, the 
Cross-Track Infrared Sounder (CrIS) suffered a broken frame during its 
vibration testing. The program has since been checking the various 
pieces of the test instrument to learn if they can still be used. 
NPOESS managers believe that the second frame can be substituted for 
the first, minimizing disruption to the program.
    The Committee's hearing in November 2005 on the NPOESS program 
examined the poor performance of NPOESS management levels. This 
extended all the way from subcontractors (as noted in the case of 
VIIRS) to the Executive Committee (EXCOM), which comprises senior 
leaders of the three agencies involved in the program. Members 
questioned why the EXCOM failed to meet as the NPOESS program spiraled 
further into crisis. Repeated analysis of alternatives often 
substituted for decisions. By August 2005, the head of NOAA declared he 
had no confidence in the information being reported by the Integrated 
Program Office. Part of the program change instituted by the Nunn-
McCurdy process was the redesign of the management structure. General 
Mashiko became responsible for seeking direction from the EXCOM and 
assuring that those decisions were executed by the IPO. The IPO also 
began hiring the technical and managerial talent needed to fill the 
many gaps that left it unaware of problems or unable to respond to 
them. The EXCOM has been holding quarterly meetings on the program. For 
the moment, at least, turmoil in the management suites is not a primary 
contributor to risk in the NPOESS program.

Climate Change Science and the White Paper on De-manifested Sensors

    NPOESS satellites, as originally designed, were to do more than 
support weather forecasting needs for NOAA and the military services. 
Sensors were also included to expand the type of climate data being 
collected by NASA's Earth Observing System satellites, and to provide 
insight into the effects on Earth's environment from solar activity. 
These sensors were removed in the Nunn-McCurdy process. The loss of 
these sensors was met with dismay among the affected user communities. 
The National Research Council, which was completing its first Earth 
science decadal survey, recommended immediate efforts to restore some 
of the sensors to NPOESS. On June 26, 2006, OSTP met with NASA and NOAA 
to discuss a response. NASA agreed to develop an analysis of the 
consequences of the removal of climate sensors.
    NASA issued its first draft on August 15, 2006. NOAA added its 
contributions in drafts that were completed in December 2006. The final 
version of the white paper was delivered to OSTP on January 8, 2007.
    In the paper, NASA and NOAA conclude that, ``Unfortunately, the 
recent loss of climate sensors due to the NPOESS Nunn-McCurdy 
Certification places the overall climate program in serious jeopardy.'' 
In the August 15 draft, NASA devised a set of recommended actions for 
the canceled sensors. The main difference between the first draft and 
final version was the development of a priority listing.
    The white paper lists its first priorities as the Total Solar 
Irradiance Sensor (TSIS) and the Earth Radiation Budget Sensor (ERBS). 
Together, these sensors track the amount of energy the Sun imparts to 
the Earth, and how much of that energy the Earth reflects from its 
surface, clouds and what is not absorbed by greenhouse gases. The 
difference between the values reported by these two sensors is a 
critical starting point for evaluating climate effects. TSIS data 
extends back over 28 years, and any loss would disrupt our 
understanding of the ``dominant, direct energy input into terrestrial 
ecosystems.''
    NASA will fly part of the TSIS instrument on its Glory mission, 
currently scheduled to launch in December 2008. It will be a three-year 
mission, with hopes of two more beyond that. The white paper recommends 
three TSIS sensors, with the first to be launched on any available and 
suitable vehicle in time to overlap with the Glory mission. For ERBS, 
the possibility of a data gap between the end of the current Aqua 
mission and the launch of the first NPOESS mission leads to a 
recommendation that the last Clouds and Earth's Radiant Energy System 
(CERES) sensor be flown on NPP, rather than wait for NPOESS. ERBS would 
then be flown aboard the first and third NPOESS missions. The Decadal 
Survey agreed that these sensors ``should be restored on NPOESS or 
provided by other means to avoid a measurement gap in the timeframe 
2008 to 2012.''
    Fourth in the white paper priority list was the limb-scattering 
component of the Ozone Monitoring and Profiling Suite (OMPS-Limb). The 
decision to remove this particular sensor came at a point where the 
hardware had been completed and would have required a significant 
effort to decouple from the other part of the instrument. Since the 
cost of completing the instrument was not that much different from 
removing it, the NPOESS program decided that a full OMPS should be 
flown on NPP as originally planned. It remains uncertain if the full 
OMPS sensor will fly on NPOESS missions.
    Of concern as this analytical process unfolds is its tenuous 
integration with the NPOESS program and the possibility that it will be 
overtaken by events. This first came to the Committee's attention in 
March when the instrument contractor indicated that if the OMPS-Limb 
sensor was to be flown on NPP, a decision had to be made by the end of 
that month to preserve the September 2009 launch date. Senior Members 
of the Committee wrote to Dr. Marburger, NASA Administrator Michael 
Griffin, and NOAA Administrator Conrad Lautenbacher to take advantage 
of the opportunity.
    Testifying before the Committee a year ago, Admiral Lautenbacher 
stated:

         We specifically decided that the NPOESS spacecraft will be 
        built with the capacity to house all of the [de-manifested] 
        sensors, and includes funding to integrate them on the 
        spacecraft. The decision was made because the EXCOM agreed that 
        any additional funding gain through contract renegotiation or 
        in unutilized management reserve would be considered to procure 
        these secondary sensors, in addition to other organizations 
        bringing money for these sensors to the table.

    Indeed, the white paper recommends taking advantage of this 
capability. Yet the drafters of the analysis indicated in a briefing to 
staff on May 17 that they learned the NPOESS program office would not 
accept any additions to the sensor complement on the first NPOESS 
satellite. Indeed, according to a briefing chart for the March 2, 2007 
EXCOM meeting, the ``Lock-Down Dates for integration of De-manifested 
Sensors'' on the first satellite was already past. Yet the white paper 
was delivered still recommending efforts to fly some sensors on the 
2013 launch.
    The EXCOM briefing chart states that ``C-1 requires significant 
additional development, integration and test time for sensors and 
spacecraft,'' and General Mashiko indicates that the NPOESS program 
made the decision to freeze the sensor complement to reduce risk of 
disruption. Yet these sensors were originally manifested aboard the 
satellite, and as Admiral Lautenbacher testified, the program was 
directed to maintain space and funding to accommodate them. The 
interfaces between sensors and satellite are already included in the 
requirements and specifications. While space on the first launch is not 
an issue for TSIS, it was an option for ERBS, OMPS-Limb and the 
Advanced Polarimetry Sensor. Is it indeed the case that there are no 
chances to fill up some of those available slots aboard the first 
NPOESS satellite?
    In contrast to the decision to restrict further changes to the 
first NPOESS satellite, the decision to add CERES to NPP is still open. 
Now just two years from launch, making yet another change to the 
complement of instruments raises the risk calculations. Arguing in 
favor of the change is that it would reduce the threat of data loss, 
and that the contractor is willing to offer a fixed-price proposal to 
do the job. The government rarely receives such offers unless the 
bidder is truly confident that the task is completely understood.
    Of more immediate concern for TSIS is the possible loss of the 
contractor's staff before the OSTP process reaches a conclusion on the 
sensor. With the decision to terminate TSIS, the University of 
Colorado's Laboratory for Atmospheric and Space Physics (LASP) has been 
dealing with the possibility that the employees on the project would 
disperse. LASP has proposed a follow-on mission that would update the 
technology now flying on the SOlar Radiation and Climate Experiment 
(SORCE) spacecraft with TSIS. This would bridge the gap between Glory 
and another TSIS that would be placed aboard the second NPOESS 
satellite in 2016. This would be consistent with the white paper's 
recommendation, but hard to execute if the sensor's builders have gone 
on to new jobs.
    A similar situation may exist in the sensor for monitoring the 
effects from solar flares and coronal mass ejections--so-called ``space 
weather'' phenomena. Power companies, airlines and satellite operators 
have all discovered in recent decades that the energetic particles and 
plasmas can disrupt critical infrastructures or increase their costs. 
NOAA's ability to provide early warning of these events, particularly 
as the Sun enters the more active phases of its 11-year cycle, has been 
improving in tandem with higher-capability sensors.
    NPOESS was slated to carry the Space Environment Sensor Suite 
(SESS), a combination of five types of instruments that collected data 
on different aspects of the particles and fields involved in space 
weather. As a result of the Nunn-McCurdy decision, these were replaced 
with the Space Environment Monitor (SEM) instrument now aboard existing 
satellites. One of these instruments is the Thermal Plasma Sensor 
(TPS). It was designed to provide data on the geomagnetic and electric 
fields and plasma temperatures and fluctuations during solar events. 
With such information, the Air Force could quickly evaluate the loss of 
function in their satellites to determine if it was the result of a 
natural event or some adversary's action. In times of crisis, this 
would be an extremely time-critical analysis. Massive events in October 
and November of 2003 and again in December 2006 affected oil drilling 
in the Gulf of Mexico as the GPS signals that precisely locate drilling 
platforms above the tangle of sea floor pipelines were lost for up to 
fifteen minutes.
    The United States has only one manufacturer for TPS sensors, a 
university group at the University of Texas at Dallas (UTD). The 
university anticipates that the group will disband as there is no other 
existing requirement for these detectors. Some of the UTD groups are 
expected to retire and the lack of interesting projects is likely to 
cause the remainder of the team to seek other opportunities. The SEM 
package will not meet the requirements assigned to the TPS sensor, and 
yet we may lose the capability to obtain such instruments in the next 
few months. OSTP only initiated the effort to conduct an analysis of 
the Nunn-McCurdy impact on the space environment sensors in February, 
and there is nothing similar to the climate sensor white paper yet 
available.
    In its original white paper draft last August, NASA stated, ``The 
budgets and schedules associated with these recommendations will be 
incorporated in a subsequent draft of this white paper to be available 
in approximately one month.'' Staff was told in the May 17 meeting that 
the authors ``were a bit optimistic'' about their ability to provide 
such information. A month after the white paper was delivered, OSTP 
asked the agencies to begin a second study that would incorporate 
budget requirements and alternatives to replacing the sensors on the 
NPOESS satellites. The National Research Council was asked to convene 
an additional panel to provide assistance. However, the agencies are 
not anticipating a final report to OSTP before September, and that may 
only include interim information from the Research Council. While 
Office of Management and Budget representatives are attending OSTP's 
meetings to obtain updates on the analysis, there does not seem to be 
any discussion about required budget actions.
    Members of the Decadal Survey recommended that ``OSTP. . .should 
develop and implement a plan for achieving and sustaining global Earth 
observations.'' This experience raises the possibility that OSTP may 
not be ready to take on that more ambitious task.

GAO's New Report

    The Committee first asked the Government Accountability Office to 
evaluate the NPOESS program in 2002, when concerns about NOAA's ability 
to handle the data volume expected from the satellites was at issue. In 
2004, it reported that costs had jumped by $1 billion and that launch 
dates for the various satellites were slipping. In November 2005, Mr. 
Powner stated that cost and schedule trends were continuing to 
deteriorate and called NPOESS ``a program in crisis.'' In this report, 
GAO focuses on the state of the NPOESS program as it starts to carry 
out the decisions made by the Nunn-McCurdy process.
    GAO notes that the program managers have succeeded in imposing 
greater discipline on the program. The program managed to achieve 156 
of 166 milestones in the interim program plan for fiscal year 2006, and 
has since addressed five of the residual items. Through January of 
2007, the program had reached 62 of the 222 milestones planned for 
fiscal year 2007--two more than planned. In a briefing to staff, Mr. 
Powner stated that the IPO maintains that NPP will meet its 2009 launch 
date and that the program cost estimate remains $12.5 billion. He said, 
though, that NPP will launch ``as-is'' (with instrument performance at 
whatever level can be achieved by launch day) and that there are still 
cost pressures that may push the estimate above $12.5 billion.

a. Acquisition planning documents

    In April, when it delivered its report, GAO noted that major 
documents necessary for the development of program plans and 
renegotiation of the contract with lead contractor Northrop Grumman are 
still awaiting approval. These included:

        <bullet>  the reworked Memorandum of Agreement defining roles 
        and responsibilities for NOAA, the Air Force and NASA;

        <bullet>  the system engineering plan;

        <bullet>  the test and evaluation master plan; and

        <bullet>  the acquisition strategy.

    According to the decision memorandum that resulted from the Nunn-
McCurdy process, the Memorandum of Agreement should have been completed 
August 6, 2006 and the other documents by September 1, 2006. These 
documents define the relationships between the Integrated Program 
Office and the agencies and lay out the predicted levels of resources 
in terms of time, money and effort that will be required to complete 
the NPOESS program in the wake of the Nunn-McCurdy recertification. The 
information in these documents will govern the budget requests for 
NPOESS from NOAA, the Air Force and NASA for years to come. That it has 
taken a year to complete these items, even though they should be little 
more than recording the hard choices already taken in the Nunn-McCurdy 
process, indicates that interagency coordination still serves to weigh 
down the program.
    GAO recommended in the report that the agencies have the approvals 
completed by April 30. Yet in meetings with the Committee staff May 23 
and 25, both GAO and General Mashiko indicated these documents still 
awaited signature. The agency comments included in the report indicate 
that the Department of Defense's process for approving the interagency 
Memorandum of Agreement appears to be the major roadblock, as NOAA and 
NASA could not complete approvals until there was a final consensus on 
the text to be approved.
    From General Mashiko's perspective, some documents are more 
important than others. She emphasized that the program office 
prioritized development and completion of the integrated master 
schedule and the integrated master plan. These, she said, were the 
prime tools for the program office's day-to-day activities and are the 
primary tools for the government's control of contractor activities. 
These documents are now developed to a point well beyond what the 
government previously had available and, according to Colonel David 
Stockton (the NPOESS Program Director), give him greater ability to 
measure actual performance by Northrop Grumman and the instrument 
manufacturers. These two documents should be in final form before 
completion of the contract renegotiation, because changes after that 
point will result in contract modifications. Such modifications rarely 
result in lower costs to the government.

b. Program Office management and staffing

    GAO next moved to a discussion of program leadership and program 
office staffing. In July, General Mashiko will be transferred by the 
Air Force to the MILSATCOM program. GAO recommends that the Air Force 
delay the transfer until July 2008, when all of the instruments 
scheduled to fly on the NPP mission have been delivered. Before that 
point, GAO considers the increase in risk from management disruption 
``unnecessary.'' That recommendation has been rejected by DOD.
    General Mashiko stated to staff that change in her position is less 
significant to progress in NPOESS than would be the case if the System 
Program Director, Colonel Dan Stockton, was to depart. The EXCOM met 
May 21 to discuss the transition. According to the comments in the 
report, NOAA was expecting to supply the next Program Executive 
Officer; apparently the deadline in the position announcement had to be 
extended two weeks to attract candidates. General Mashiko indicated 
eight are now being considered. The Air Force will supply a deputy. The 
intent is to select the replacement quickly to allow as much time as 
possible to hand over responsibilities and to allow the new Executive 
Officer to participate in decision-making.
    GAO argues in its report that management turnover is a contributing 
factor to the problems that have disrupted many other Air Force space 
system procurements. They believe senior managers should serve until 
completion of development or actual delivery of their product, not 
simply an arbitrary period of time. The former Chairman and CEO of the 
Lockheed Martin Corporation, Norm Augustine, wrote in his book 
Augustine's Laws about the problems that come from ``. . .attempting to 
develop major new systems with ten-year technology, eight-year 
programs, a five-year plan, three-year people, and one-year dollars.'' 
GAO has lost the argument on this recommendation, but this now becomes 
another issue that the Committee will have to watch carefully as the 
new leadership takes over.
    GAO also recommended that NOAA needed to develop plans for 
identifying the staffing needs in the NPOESS program office and to 
initiate steps to fill vacant critical slots. The lack of systems 
engineering personnel and budget and cost analysts in the Program 
Office has been a consistent concern of independent reviewers. As of 
April, GAO found that five budget analyst positions and 15 system 
engineering or technical manager positions remained unfilled; 16 were 
to be provided by NOAA. That these positions remained open a year after 
the Nunn-McCurdy decision directive ordered expedited actions to fill 
vacant positions led GAO to express concern about the government's 
ability to develop an updated cost estimate for renegotiating the 
contract with Northrop Grumman or to handle management tasks.
    General Mashiko stated in her staff interview that staffing actions 
had accelerated with the hiring of a personnel specialist with the 
ability to assist division managers in identifying staffing needs. The 
Program Office also received assistance from the human resource offices 
at the three agencies to find candidates with particular skills and see 
them assigned to NPOESS positions. General Mashiko indicated that there 
are now only six of NOAA's 16 slots still open, and those were in 
various stages of recruitment. Some positions had to be re-advertised 
to identify candidates with appropriate skills. That NPOESS is 
competing with every other R&D agency in the government for these skill 
sets also slowed the process.

c. Continuing concerns

    As noted earlier, the sensors for NPOESS remain the major concern 
in successfully executing both the early NPP mission and the 
operational NPOESS program. The VIIRS instrument was the subject of 
extensive discussion at the EXCOM meeting of March 2, 2007. This so-
called ``Gate 8'' decision required the instrument team to demonstrate 
that it had addressed design issues and that the instrument would 
perform as expected. According to the briefing slides, assuming that 
the flight unit performed as well as the current engineering 
development unit, the data would meet or exceed what is now provided by 
existing satellites. However, there was one issue--``optical 
crosstalk''--that remained open. It threatened to reduce ocean color 
measurements below the lower limit of the specification. If NOAA 
decided to buy a new filter from a different manufacturer, it might 
slip the delivery schedule. The EXCOM decided to accept the 
recommendation to continue forward with VIIRS development while 
continuing to seek a solution to the crosstalk issue. General Mashiko 
indicated to the staff that VIIRS delivery for the NPP mission is still 
scheduled for late May next year, and there remains three months of 
margin in that schedule.
    The Failure Review Board for the CrIS flight unit vibration test 
mishap believes an incorrect structural analysis of the instrument 
frame led to an overestimate of the frame's strength. The subassemblies 
are being tested to see if they suffered damage; particularly the 
interferometer, which is the primary sensor element. The IPO has 
already begun to build a second interferometer to minimize disruption 
if the first is unusable. The frame for the second flight unit will be 
used in the first instrument (the fixes defined by the failure analysis 
``will not be pretty'' but they will work, according to Col. Stockton). 
The government technical team independently analyzed and approved the 
frame changes. Delivery of this unit slipped from December 2007 to 
February 2008; three months of margin still remains.
    Loss of the CMIS sensor affected two important data items. CMIS was 
the prime contributor to the measurement of soil moisture, critical to 
the Army as it determines whether heavy equipment can operate in a 
particular region. Requirements for collecting data on ocean winds were 
also to be met with CMIS data, which factors into recent concerns about 
the possible loss of the QUIKScat scatterometer and the resulting 
impact on hurricane forecasting. In the Nunn-McCurdy decision 
memorandum, the NPOESS program was directed to initiate a new microwave 
imaging sounder that would provide an instrument at least as capable as 
current technology in time to fly on the second NPOESS satellite in 
2016. General Mashiko stated that the specifications for this new 
sensor have been developed, and that the program office is consulting 
the user community. The Program Office hopes to have a recommendation 
for Mashiko's replacement as Executive Officer in September in order to 
obtain EXCOM approval by January 2008.
    GAO notes in its report that during 2006 spending for NPOESS space 
items exceeded the cost target by $17 million (a four percent overrun 
of the planned budget for the year). Further, the contractor could not 
complete $14.6 million planned during the year. The problems with the 
VIIRS and CrIS instruments were the major factors. These negative 
trends are likely to persist as the testing programs on the instruments 
progress. GAO states that these issues may affect the life-cycle cost 
estimate.
    There may also be impacts on the cost estimate from the contract 
modification negotiations now underway. Schedule milestones will be the 
primary criteria in award fee determinations, and the award fees will 
be small. Northrop Grumman delivered its proposals for the contract 
modification May 7. General Mashiko intends to have the new contract 
signed before she leaves.
    GAO concludes that ``restructuring is well under way, and the 
program has made progress in establishing an effective management 
structure.'' There has not been enough progress to show that the key 
technical risks which have bedeviled the program are being reduced, 
however. VIIRS flight hardware has yet to be built, and CrIS flight 
hardware suffered an unexpected failure in early testing. General 
Mashiko will not dispute that assessment but argues that the steps 
taken by the new program management give greater confidence that we 
have an accurate understanding of the risks and a realistic plan to 
deal with them. GAO has already accepted a request from the Committee 
to continue its independent evaluation as execution of the restructured 
program advances.
    Chairman Lampson. This hearing will come to order, and I 
want to wish all of you a good afternoon. Welcome to this 
hearing on the National Polar-Orbiting Operational 
Environmental Satellite System, NPOESS. These satellites are 
the next generation of observational platforms that will allow 
the National Oceanic and Atmospheric Administration and the 
Department of Defense to provide weather forecasting services. 
It is not too much to say that the United States cannot get 
along without them.
    And this is not the first hearing the Committee has held on 
NPOESS, and I am confident in saying that it won't be the last. 
This has been an area of strong bipartisan concern for several 
years. When I left Congress in January of '05 (not by choice) 
this committee was already concerned about performance trends 
in the NPOESS program. The Government Accountability Office had 
reported to this subcommittee in September, '04\1\, that a 
significant increase in the cost estimate had occurred, there 
were technical problems with the instruments, and there was 
strong evidence that there would be a half-billion-dollar cost 
overrun at the end of the program.
---------------------------------------------------------------------------
    \1\ Polar-Orbiting Environmental Satellites: Information on Program 
Cost and Schedule Changes, Government Accountability Office Report GAO-
04-1054; September 30, 2004.
---------------------------------------------------------------------------
    Just over a year later, Mr. Powner has testified in a 
hearing here that cost and schedule trends had worsened and 
said that the program was in crisis.\2\ Soon after that 
testimony, Congress received notification that there was good 
cause to believe NPOESS would exceed its acquisition baseline 
cost by more than 25 percent--by more than the 25 percent 
needed to trigger a re-certification of the program under the 
Nunn-McCurdy provisions of federal procurement law.\3\
---------------------------------------------------------------------------
    \2\ U.S. House of Representatives Committee on Science. Ongoing 
Problems and Future Plans for NOAA's Weather Satellites. Hearing before 
the Committee on Science. Serial No. 109-33; November 16, 2005.
    \3\ 10 U.S.C. 2433, et seq.
---------------------------------------------------------------------------
    Today's hearing marks the first time for the Committee to 
get a sense of how the post-Nunn-McCurdy NPOESS program is 
faring. Nunn-McCurdy decisions at the Department of Defense 
have established a track record of more expensive acquisitions 
for fewer satellites. Perhaps most critically, the re-certified 
program now lacks most of the climate sensors that were to fly 
on NPOESS and were to form the heart of our instrumentation to 
provide data for tracking global warming.
    The Office of Science and Technology Policy started an 
effort to deal with the climate sensors lost for NPOESS almost 
immediately after the announcement of the Nunn-McCurdy 
decision. Dr. John Marburger is joining us today to explain 
that process.
    My concern is that the effort headed by OSTP, with 
analytical support from NASA and NOAA, is lagging the pace 
needed to make effective decisions. The directions to the 
agencies are to look at all options for every data need rather 
than a direction to identify money that could be used to fund 
the planned instruments that had been de-manifested. You can 
study that problem and all possible options for as long as you 
want, but at some point the manifests for what will fly on the 
NPOESS satellites have to be finalized, and so decisions are 
not just due. I believe they are overdue.
    I think that without decisive action and leadership, we 
will lose continuity in the multi-decadal data sets that are 
sensitive--that are central to our understanding of global 
warming. In fact, some breaches in data collection may be 
unavoidable at this point. There was time, just time to add 
money into the 2008 budget request if the interagency exercise 
had been pushed harder last summer. Now, one year later, the 
problem is still under study, and it may be that answers won't 
come before the 2009 budget is finalized.
    As to money, I think that NASA and NOAA may not be able to 
do what needs to be done without direct intervention from the 
White House to give them the added resources necessary to fund 
those instruments. The President just delivered another major 
address on climate change. Perhaps one step he could take 
towards showing other nations that this proposal is a serious 
one would be to identify funds to find and to fly the climate 
sensors.
    We will also hear today from David Powner of GAO. Mr. 
Powner is a frequent witness before this committee. His 
testimony today is less dramatic than at some other times, 
prior appearances. At this moment in time the NPOESS program 
does not appear to be losing further ground.
    According to GAO's report, the ground systems for NPOESS 
data handling are now running under their budget, and they have 
achieved more than they had planned to accomplish at this 
point. Such performances are so rare it may be that particular 
project manager deserves the Congressional Gold Medal.
    Unfortunately, that performance is overshadowed by the 
continuing risks we see with the major instruments destined to 
fly on these satellites. Both the VIIRS\4\ and CrIS\5\ 
instruments still show significant engineering challenges. 
There is little doubt that the challenges can be overcome, but 
the risk attaches to how much time and money the fixes will 
cost.
---------------------------------------------------------------------------
    \4\ VIIRS: Visible-Infrared Imaging Radiometer Suite
    \5\ CrIS: Cross-Track Infrared Sounder
---------------------------------------------------------------------------
    There are still a lot of tests for NPOESS to get through, 
which means there are many opportunities for unexpected events 
to upset the program. So we have asked Mr. Powner to keep up 
the good work.
    Air Force Brigadier General Susan Mashiko is also with us 
today, and in the 20 months that she served as Program 
Executive Officer for NPOESS, she has restored a semblance of 
order in management structure, to the management structure. 
Indeed, the announcement of her imminent rotation to another 
posting led GAO to recommend to the Air Force that she not be 
spared just yet. I think that the Air Force is going to ignore 
that advice, but it may be to the detriment of the program if 
solid management is not put into place immediately. NPOESS is 
not a program that can be allowed to drift along.
    We are a year beyond the Nunn-McCurdy de-manifestation--de-
manifesting of both climate science and space weather 
instruments--and yet no decisions have been made on how to 
proceed.
    We are a year beyond Nunn-McCurdy with the same instruments 
causing us the same concerns about risk.
    General Mashiko is a month away from her transfer and no 
replacement has been named.
    I think progress has been made in managing the downsized 
NPOESS program that the Department of Defense brought us, but 
not enough progress to reduce our concerns about the future for 
this satellite program or to satisfy our need to see our 
climate science efforts fully supported.
    I want to thank all for you for coming, and I will now 
recognize the Ranking Member, Mr. Inglis, for his opening 
remarks.
    [The prepared statement of Chairman Lampson follows:]

              Prepared Statement of Chairman Nick Lampson

    Good afternoon, welcome to this hearing on the National Polar-
Orbiting Operational Environmental Satellite System (NPOESS). These 
satellites are the next generation of observational platforms that will 
allow the National Oceanic and Atmospheric Administration and the 
Department of Defense to provide weather forecasting services. It is 
not too much to say that the United States cannot get along without 
them.
    This is not the first hearing the Committee has held on NPOESS and 
I am confident in saying it will not be the last. This has been an area 
of strong bipartisan concern for several years.
    When I left Congress in January of 2005--not by choice, of course--
this committee was already concerned about performance trends in the 
NPOESS program.
    The Government Accountability Office had reported to this 
subcommittee in September 2004 that a significant increase in the cost 
estimate had occurred, there were technical problems with the 
instruments and there was strong evidence that there would be a half-
billion-dollar cost overrun at the end of the program.
    Just over a year later, Mr. Powner testified in a hearing here that 
cost and schedule trends had worsened and said the program was in 
crisis.
    Soon after that testimony, Congress received notification that 
there was good cause to believe NPOESS would exceed its acquisition 
baseline cost by more than the 25 percent needed to trigger a 
recertification of the program under the Nunn-McCurdy provisions in 
federal procurement law.
    Today's hearing marks the first time for the Committee to get a 
sense of how the post-Nunn-McCurdy NPOESS program is faring. Nunn-
McCurdy decisions at the Department of Defense have established a track 
record of more expensive acquisitions for fewer satellites.
    Perhaps most critically, the recertified program now lacks most of 
the climate sensors that were to fly on NPOESS and were to form the 
heart of our instrumentation to provide data for tracking global 
warming.
    The Office of Science and Technology Policy started an effort to 
deal with the climate sensors lost for NPOESS almost immediately after 
the announcement of the Nunn-McCurdy decision. Dr. John Marburger is 
joining us today to explain that process.
    My concern is that the effort headed by OSTP, with analytical 
support from NASA and NOAA, is lagging the pace needed to make 
effective decisions.
    The directions to the agencies are to look at all options for every 
data need rather than a direction to identify money that could be used 
to fund the planned instruments that had been de-manifested.
    You can study that problem and all possible options for as long as 
you want, but at some point, the manifests for what will fly on the 
NPOESS satellites have to be finalized, and so decisions are not just 
due, I believe they are overdue.
    I think that without decisive action and leadership, we will lose 
continuity in the multi-decadal data sets that are central to our 
understanding of global warming. In fact, some breaches in data 
collection may be unavoidable at this point.
    There was just time to add money into the 2008 budget request if 
the interagency exercise had been pushed harder last summer. Now, one 
year later, the problem is still under study and it may be that answers 
won't come in before the 2009 budget is finalized.
    As to money, I think that NASA and NOAA may not be able to do what 
needs to be done without direct intervention from the White House to 
give them the added resources necessary to fund those instruments.
    The President just delivered another major address on climate 
change. Perhaps one step he could take towards showing other nations 
that this proposal is a serious one would be to identify funds to fly 
the climate sensors.
    We will also hear today from David Powner of GAO. Mr. Powner is a 
frequent witness before the Committee. His testimony today is less 
dramatic than at some prior appearances. At this moment in time, the 
NPOESS program does not appear to be losing further ground.
    According to GAO's report, the ground systems for NPOESS data 
handling are now running under their budget and they have achieved more 
than they had planned to accomplish at this point.
    Such performances are so rare it may be that particular project 
manager deserves the Congressional Gold Medal.
    Unfortunately, that performance is overshadowed by the continuing 
risks we see with the major instruments destined to fly on these 
satellites.
    Both the VIIRS and CrIS instruments still show significant 
engineering challenges. There is little doubt that the challenges can 
be overcome, but the risk attaches to how much time and money the fixes 
will cost.
    There are still a lot of tests for NPOESS to get through, which 
means there are many opportunities for unexpected events to upset the 
program. So we have asked Mr. Powner to keep up the good work.
    Air Force Brigadier General Susan Mashiko is also with us today. In 
the 20 months she has served as Program Executive Officer for NPOESS, 
she has restored a semblance of order to the management structure. 
Indeed, the announcement of her imminent rotation to another posting 
led GAO to recommend to the Air Force that she could not be spared just 
yet.
    I think the Air Force is going to ignore that advice, but it may be 
to the detriment of the program if solid management is not put in place 
immediately. NPOESS is not a program that can be allowed to drift 
along.
    We are a year beyond the Nunn-McCurdy de-manifesting of both 
climate science and space weather instruments and yet no decisions have 
been made on how to proceed.
    We are a year beyond Nunn-McCurdy with the same instruments causing 
us some of the same concerns about risk.
    General Mashiko is a month away from her transfer and no 
replacement has been named.
    I think progress has been made in managing the downsized NPOESS 
program that the Department of Defense brought us, but not enough 
progress to reduce our concerns about the future for this satellite 
program or to satisfy our need to see our climate science efforts fully 
supported.

    Mr. Inglis. Good afternoon, and thank you, Mr. Chairman for 
holding this hearing about the National Polar-Orbiting 
Operational Environmental Satellite System, NPOESS. This 
hearing continues close oversight of this vital weather 
satellite program, oversight that started under the Republican 
leadership of this committee.
    Under the Republican leadership in the last Congress, this 
committee held three high-profile hearings about NPOESS. In 
looking over the testimony for today's hearing, it appears to 
me that close oversight has paid off. For the most part, the 
program is on track under the new plan announced in June of 
2006.
    Of course, risks remain for a satellite known as ``the most 
complex environmental satellite system ever developed,'' but 
the government has plans in place to address most of the risks 
identified by GAO. Also, the government is actively examining 
the options to provide environmental data that we had expected 
from NPOESS but under the new plan we will not receive.
    But simply because things appear under control right now, I 
don't want to imply that Congress, or the Administration for 
that matter, can back off from our close oversight of NPOESS. 
In fact, I believe just the opposite. Lack of oversight of the 
management of NPOESS, the contractor, and the many technical 
problems facing NPOESS all led to the June 2006, Nunn-McCurdy 
certification in the first place.
    Those of us responsible for this program--Congress, NOAA, 
the Air Force, and NASA--cannot sit back and relax or we will 
risk yet another four-year delay or doubling of costs. NPOESS 
today is a $12.5 billion program. That is a lot of taxpayer 
money. We expect that investment to provide a series of weather 
satellites that are launched on time and provide data to inform 
everything from decisions about our military troop operations 
to forecasting the path of hurricanes.
    Also, I expect that the interagency report on avoiding gaps 
in other environmental data be completed as soon as reasonably 
possible. The longer we wait to make a final decision on this, 
the greater risk we face of having a gap in data important for 
understanding global climate change and for seasonal forecasts 
of events like El Nino.
    I look forward to hearing from our witnesses today and 
yield back the balance of my time.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Good afternoon. Thank you, Chairman Lampson, for holding this 
hearing about the National Polar-orbiting Operational Environmental 
Satellite System, NPOESS. This hearing continues close oversight of 
this vital weather satellite program, oversight that started under 
Republican leadership of this committee.
    Under Republican leadership in the last Congress, this committee 
held three high-profile hearings about NPOESS. In looking over the 
testimony for today's hearing, it appears to me that close oversight 
has paid off. For the most part, the program is on track under the new 
plan announced in June 2006.
    Of course, risks remain for a satellite known as ``the most complex 
environmental satellite system ever developed.'' But, the government 
has plans in place to address most of the risks identified by GAO. 
Also, the government is actively examining options to provide 
environmental data that we had expected from NPOESS but under the new 
plan we will not receive.
    But, simply because things appear under control right now, I do not 
want to imply that the Congress, or the Administration for that matter, 
can back off from our close oversight of NPOESS. In fact, I believe 
just the opposite. Lack of oversight of the management of NPOESS, the 
contractor, and the many technical problems facing NPOESS all led to 
the June 2006 Nunn-McCurdy certification in the first place.
    Those of us responsible for this program, Congress, NOAA, the Air 
Force, and NASA, cannot sit back and relax or we risk yet another four-
year delay or doubling of costs. NPOESS today is a $12.5 billion 
program. That is a lot of taxpayer money. We expect that investment to 
provide a series of weather satellites that are launched on time and 
provide data to inform everything from decisions about our military 
troop operations to forecasting the path of hurricanes.
    Also, I expect that the interagency report on avoiding gaps in 
other environmental data be completed as soon as reasonably possible. 
The longer we wait to make a final decision on this, the greater risk 
we face of having a gap in data important for understanding global 
climate change and for seasonal forecasts of events like El Nino.
    I look forward to hearing from our witnesses today and yield back 
the balance of my time.

    Chairman Lampson. Thank you, Mr. Inglis. I ask unanimous 
consent that all additional opening statements submitted by the 
Committee Members be included in the record. Without objection 
so ordered.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Mr. Chairman, I'm very concerned about the status of the entire 
NPOESS program, not only because of the critically important climate 
data that may be lost if a home is not found for the de-manifested 
instruments, but also because the de-manifesting of those instruments 
is having a great impact on my district.
    On the plus side, I am pleased that NASA and NOAA have worked 
together to find the funding needed to bring back the OMPS Limb sensor 
for the NPP spacecraft. OMPS Limb, which is being built by Ball 
Aerospace in Boulder, will provide measurements of ozone in our 
atmosphere.
    However, it is clear that other instruments are not faring as well. 
I am particularly concerned about the Total Solar Irradiance Sensor 
(TSIS) and the Space Environment Sensor Suite (SESS).
    TSIS will provide essential data on the impact that the sun has on 
our atmosphere and climate--and it is the number one priority 
instrument listed in the recent National Research Council's Decadal 
Survey on Earth Science. It was being developed by the University of 
Colorado's Laboratory for Atmospheric and Space Physics.
    However, with the funding pulled for this instrument for NPOESS, 
the researchers and engineers working on this instrument may have to 
leave LASP to find other careers, jeopardizing our ability to have this 
instrument available to fly when needed.
    We need one agency to take responsibility for this critical 
instrument and its funding. NASA and NOAA would be the logical agencies 
and I hope that a decision is made about a lead agency soon. TSIS has 
been abandoned for too long and, unless additional funding is found by 
the middle of July, we are going to lose critical human capital.
    I am also very concerned about the status of the SESS. The 
information that it provides is essential for us to better understand 
and predict solar flares and their impact on our economy. These flares 
have wide reaching impacts on everything from airplane flights over the 
poles to telecommunications across the world. The Space Environment 
Center in my district has been key to enabling governments and 
businesses prepare for increased solar activity. Yet without SESS, we 
will not only curb our advances, but we may also lose the capabilities 
that we currently have.
    I will continue to closely monitor the status of TSIS and SESS, 
along with the rest of NPOESS.

    Chairman Lampson. We are very pleased to have this 
distinguished panel of witnesses here this afternoon. Dr. John 
Marburger, a science advisor to the President and Director of 
the Office of Science and Technology Policy, OSTP, in the 
Executive Office of the President. Prior to his appointment as 
Director of OSTP, Dr. Marburger served as Director of the 
Brookhaven National Laboratory in New York and as President of 
the State University of New York at Stony Brook. Dr. Marburger 
has appeared before our committee many times. Today he is here 
to discuss OSTP's efforts to provide continuity in our climate 
observing system, and I thank you for being here. Good 
afternoon.
    Mr. David Powner is the Director of IT Management Issues 
for the U.S. Government Accountability Office, GAO. Mr. Powner 
and his team have been diligently tracking satellite 
procurement programs for this committee since 2001. He is here 
today to discuss their latest report on the current status of 
the NPOESS program. Your team's work has been extremely 
valuable to the Members of the Committee. We thank you for your 
excellent work and for being here to testify this afternoon.
    And finally we have Brigadier General Susan Mashiko. 
General Mashiko is the Program Executive Officer for 
Environmental Satellites. She oversees the Integrated Program 
Office, the tri-agency organization that is in charge of the 
development of the new polar satellite system, NPOESS. General 
Mashiko has held a variety of positions in the Department of 
Defense, including Program Manager for the Atlas V Program, 
Chief of the Programs Division in the Office of Special 
Projects, and Executive Officer to the DOD Space Architect. She 
has been overseeing the NPOESS program since November of 2005, 
and we are pleased to have you here this afternoon as well, 
General.
    You will each have five minutes for your spoken testimony. 
Your written testimony may be included in the record for the 
hearing. And when all three of you have completed your 
testimony, we will begin with questions. Each Member will have 
five minutes to question the panel, and we will rotate.
    Dr. Marburger, would you please begin?

 STATEMENT OF DR. JOHN H. MARBURGER, III, DIRECTOR, OFFICE OF 
    SCIENCE AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF THE 
                           PRESIDENT

    Dr. Marburger. Thank you very much, Chairman Lampson, and 
Ranking Member Inglis, and Members of the Committee. I am 
pleased to appear today to describe the activities of OSTP and 
Executive Branch agencies related to the NPOESS program. My 
written testimony discusses the ongoing interagency assessment 
of the impacts of de-manifesting several Earth-observing and 
space environment sensors from the NPOESS spacecraft during the 
2006 restructuring of the program. My written testimony also 
discusses some other related systems, and I appreciate it being 
included in the record.
    The background material in your charter for today's hearing 
describes the history of the NPOESS program, and I will not 
repeat it here. From the point of view of science impacts, it 
is important to understand that in the restructuring process 
the agencies gave highest priority to preserving continuity and 
operational terrestrial weather forecasting capabilities, which 
was the original focus of the program. And as you know the 
restructuring decision which was announced on June 5, 2006, 
reduced the number of operating NPOESS satellites and orbits 
and also removed several Earth-observing and space weather-
related sensors from the baseline program budget.
    When my office learned of these decisions, we convened an 
interagency meeting later that June, including representatives 
from NASA, NOAA, and the NPOESS Integrated Program Office. We 
wanted first to gain a better understanding of the projected 
capabilities of the revised program; second, to explore the 
implications of these changes for climate and ocean research 
activities; and third, to obtain agency views and information 
on ways to retain the capabilities of sensors removed from the 
baseline. Based on discussions in this meeting we asked NASA 
and NOAA to provide my office, OSTP, with a joint technical 
assessment of the expected science implications of the NPOESS 
restructuring decision and options for addressing those impacts 
in terms of climate research. NASA/NOAA responded with a white 
paper in January of this year.\6\
---------------------------------------------------------------------------
    \6\ Impacts of NPOESS Nunn-McCurdy Certification on Joint NASA-NOAA 
Climate Goals. Earth Science Division, Science Mission Directorate, 
Headquarters, National Aeronautics and Space Administration, and 
Climate Observations and Analysis Program, Climate Program Office, 
National Oceanic and Atmospheric Administration. January 8, 2007.
---------------------------------------------------------------------------
    This initial response included a good analysis of the 
potential climate science impacts of the restructuring 
decision. It also addressed the projected impacts of 
eliminating each sensor and prioritized the de-manifested 
sensors in terms of the importance of their measurements.
    The options it presented for retaining the capabilities of 
the eliminated sensors focused mostly on re-manifesting them 
back onto NPOESS.
    Because that white paper did not include the full range of 
options for retaining climate and ocean research capabilities 
and did not make cost estimates that are essential for policy-
making, OSTP asked the agencies for more information on these 
issues, and NASA and NOAA are in the process of developing that 
information.
    Interagency discussions and follow-up questions and 
analyses will continue throughout the summer and fall and feed 
into the fiscal year 2009 budget process. One important 
decision has already been made. The sensor known as OMPS-
Limb\7\ has been restored to fly on NASA's NPOESS Preparatory 
Project satellite, the NPP, which is scheduled to launch in 
2009. NASA and NOAA will split the cost to re-manifest the 
OMPS-Limb instrument.
---------------------------------------------------------------------------
    \7\ OMPS: Ozone Mapping and Profiler Suite.
---------------------------------------------------------------------------
    I want to thank this committee for its interest in this 
project and its support of the program and related sensor 
studies. We face more challenges in addressing these topics, 
but we are making progress. We are working closely with 
interested agencies in devising the way forward.
    And I would be pleased to respond to questions.
    [The prepared statement of Dr. Marburger follows:]

              Prepared Statement of John H. Marburger, III

    Chairman Lampson, Ranking Member Inglis, and Members of the 
Subcommittee, I am pleased to appear before you today to describe OSTP 
and interagency activities related to the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) weather satellite 
program. As you requested, I will discuss the ongoing interagency 
assessment of the impacts of removing or ``de-manifesting'' several 
Earth-observing and space environment sensors from the NPOESS 
spacecraft during the 2006 restructuring of the program. I will also 
describe certain other important climate-related activities of 
potential interest to the Committee.
    First let me briefly outline the NPOESS program and its history. 
The NPOESS effort was established through Presidential Decision 
Directive in 1994, with the goal of integrating the polar weather 
capabilities developed by the Department of Defense (DOD) and the 
Department of Commerce (DOC) into one next-generation program that 
would support both civil and military weather requirements. The role of 
the National Aeronautics and Space Administration (NASA) was to improve 
the remote sensing capabilities of the operational system through the 
insertion of new technologies. The idea was to have one next-generation 
program that would support both civil and military weather requirements 
and to align overlapping and complementary capabilities to increase 
efficiency and data synergy. As planning evolved, a number of other 
Earth-observing and space environment sensors and capabilities were 
incorporated into the basic program, making NPOESS (as envisioned at 
that time) a key component not only for operational weather 
forecasting, but also for research on climate, oceans, and space 
weather.
    Oversight of the NPOESS program is provided jointly by the three 
agencies through an Executive Committee, and funding is divided equally 
between DOD and DOC. Within this tri-agency framework, DOD is 
responsible for major program acquisitions (conducted through the Air 
Force), DOC's National Oceanic and Atmospheric Administration (NOAA) is 
responsible for satellite operations, and NASA is responsible for 
developing new technologies. Development and other activities within 
the program are managed by an integrated program office. These 
arrangements for NPOESS are unique within the Federal Government, and 
many consider it the most complex environmental satellite system ever 
developed.
    Previous communications to Congress during hearings and in 
Executive Branch correspondence have reported numerous technical, 
developmental, and management challenges in the NPOESS program since 
its inception, resulting in various cost increases and scheduling 
delays. In late 2005, the NPOESS integrated program office determined 
that projected cost over-runs for NPOESS would exceed the 25 percent 
threshold triggering a breach of the Nunn-McCurdy statute, thus 
requiring the Secretary of Defense to certify that the program meets 
the following criteria: it is essential to the national security, no 
alternatives provide equal or greater military capability at less cost, 
new estimates of the program acquisition unit cost are reasonable, and 
the management structure is adequate to manage and control program 
costs. Accordingly, DOD worked with DOC and NASA through the first half 
of 2006 to restructure the NPOESS effort in order to address the 
significant cost over-run and reduce program risk. In this 
certification process, the agencies gave highest priority to preserving 
continuity in operational terrestrial weather forecasting 
capabilities--the original focus of the program. The ultimate decision 
regarding the restructuring of NPOESS was announced on June 5, 2006.
    The current restructured NPOESS program includes four NPOESS 
satellites operating in two orbits, augmented by data from a European 
weather system using several sensors provided by the United States in a 
third orbit. (In contrast, the program before restructuring had planned 
on flying six NPOESS satellites in three orbits.) To decrease costs and 
help maintain continuity in operational weather capabilities, the three 
agencies also decided to remove several Earth-observing and space 
weather-related sensors from the baseline NPOESS program budget--
effectively removing these sensors from NPOESS--and to de-scope certain 
other instruments in terms of performance. It is important to note that 
NPOESS, as restructured, still satisfies many climate data 
requirements. In addition, the recertified program retains funding 
within the NPOESS baseline for the reintegration of the de-manifested 
sensors should a way be found to provide them from outside the program. 
Nevertheless, the potential impacts to the climate science program 
continue to raise concerns.
    When my office (OSTP) learned of these decisions, we convened an 
interagency meeting in late June 2006, including representatives from 
NASA, NOAA and the NPOESS integrated program office, to (1) gain a 
better understanding of the projected capabilities of the revised 
program, (2) explore the implications of these changes for climate and 
ocean research activities, and (3) obtain agency views on ways to 
retain the capabilities of sensors removed from the baseline NPOESS 
configuration. Based on the discussions in this meeting and our sense 
that more work was needed on these topics, we asked NASA and NOAA to 
provide OSTP with a joint technical assessment of the expected science 
implications of the NPOESS restructuring decision, and options for 
addressing those impacts in terms of climate research (implications for 
space weather research and activities will be addressed separately). In 
response to our request, a joint NASA/NOAA assessment was provided to 
OSTP in early January 2007, in the form of a ``white paper.''
    The initial NASA/NOAA response to OSTP includes an analysis of the 
potential climate science impacts of the 2006 NPOESS restructuring 
decision. It also addresses the projected impacts of eliminating each 
sensor and provides prioritized rankings of the de-manifested sensors 
in terms of the importance of their measurements. In addition, the 
white paper presents options for retaining the capabilities of the 
eliminated sensors that focus largely on re-manifesting them back onto 
NPOESS.
    The NASA/NOAA white paper is useful for understanding the 
dimensions of the problems created by restructuring, and is a helpful 
and important contribution to the process of resolving them. At the 
same time, it does not include the full range of options for retaining 
the climate and ocean research capabilities, and does not include cost 
estimates that are essential for policy-making. Consequently, OSTP 
asked the agencies for further analysis of a broader range of options, 
including potential solutions such as free-flyers, adding instruments 
to other U.S. Government spacecraft, or international cooperative 
opportunities. We also requested that NASA and NOAA provide cost 
estimates for the full range of options being explored. NASA and NOAA 
are in the process of developing information for OSTP and the Office of 
Management and Budget regarding various options and preliminary cost 
estimates for those options.
    Interagency discussions and follow-up questions and analyses 
regarding these and other potential mitigation strategies will continue 
throughout the summer and fall. Our goal is to complete this phase of 
the analysis in time to inform the FY 2009 budget process, where this 
information could be considered along with other elements of department 
and agency requests. One decision has already been made--the Ozone 
Mapping and Profiler Suite (OMPS) Limb has been restored to fly on the 
NPOESS Preparatory Project (NPP) satellite, which is scheduled to 
launch in 2009. NASA and NOAA will split the cost to re-manifest the 
OMPS-Limb instrument.
    Regarding instruments other than OMPS-Limb, there have been no 
decisions yet on options, program schedules, or identification of 
funds. Those issues will need to be addressed as the process unfolds in 
coming months. My priorities during this review are to promote 
continuity of key climate data needs while ensuring that current 
planned missions are not negatively impacted by payload modifications. 
While much remains to be completed, I must emphasize that NASA, NOAA 
and members of my staff are investing much time and effort on this 
difficult problem. Other portions of the scientific community are 
providing useful input as well. For example, we are looking forward to 
the results of an NRC workshop later this month regarding these and 
related Earth-observation issues. The necessary work is getting done, 
and OSTP will continue to monitor the process closely as it moves 
forward.
    In addition to the NPOESS climate-related sensors that are the 
focus of the ongoing assessment, a suite of space weather sensors was 
also de-manifested from the baseline NPOESS effort during the 2006 
restructuring of the program, as noted earlier. These sensors were an 
important element of the Nation's planned capabilities for observing 
and predicting space weather phenomena such as solar flares, sunspots, 
auroras and the solar wind. The loss of such measurements could have a 
serious impact on a wide range of U.S. operations and research. 
Accordingly, and as with the de-manifested climate sensors, we have 
requested that agencies with space weather interests, including DOD, 
DOC, and NASA, provide a joint assessment of the impacts of the NPOESS 
restructuring decision on national space weather-related capabilities 
and goals, followed by an assessment of potential options for 
addressing such impacts. This effort is in its early stages and likely 
will require several months to complete. Our goal in this effort is to 
obtain the necessary information in time to inform the FY 2010 budget 
process--a suitable schedule for this analysis according to the 
agencies involved.
    I would like to mention some other climate-related issues today 
that are not directly linked to NPOESS but are part of the broader 
context for OSTP's ongoing work on Earth observations. The fourth 
assessment report of the Intergovernmental Panel on Climate Change 
(IPCC) shows that great progress has been made in characterizing and 
understanding Earth's climate system and how that system is changing, 
and U.S. Government-funded Earth observations have been critical in 
achieving this progress. Earth observations are important for 
characterizing the impacts of climate change to natural and human 
systems, and for many other applications such as improved weather 
forecasts, predicting and responding to natural disasters, water 
resource management, characterizing air quality and assessing ecosystem 
health. While current challenges to maintaining and improving U.S. 
Earth-observing systems exist, as noted in the recently released 
National Research Council (NRC) Decadal Survey on Earth Science, I want 
to emphasize that this Administration is committed to supporting these 
capabilities.
    The NRC report points out that no single mechanism currently exists 
for coordinating all national Earth-observing needs across agencies. 
Although the Climate Change Science Program has an Observations Working 
Group to facilitate interagency understanding and information 
exchanges, it has not yet developed a national strategy for climate 
observations--nor has any other group. Climate observation plans have 
been part of individual agency program plans and budgets, or have been 
assembled through mission-specific collaborative processes like the one 
that produced NPOESS. This situation exists for most other observation 
types as well, not just those for climate. For example, there is an 
Interagency Working Group on Ocean Observations that is looking at a 
range of ocean-related observations, including but not limited to, 
those focusing on climate. Similarly, there is a NASA-NOAA Joint 
Working Group on Research-Operations Transition intended to address 
issues associated with the transition of observations initiated as 
research into operational ones.
    Several organizations including the NRC have noted the need for a 
plan to achieve and sustain global Earth observations, and this issue 
has been taken up by the National Science and Technology Council 
Subcommittee on Earth Observations (known as the U.S. Group on Earth 
Observations, or USGEO). USGEO, which is co-chaired by OSTP, NASA, and 
NOAA, recently reorganized to focus on a national strategy for Earth 
observations that would address topics such as organizational roles and 
responsibilities, data collection and sharing protocols, and sector-
specific priorities for investment. This process is ongoing, and I 
anticipate that at least a year will be required to produce a strategic 
plan for this complex issue.
    OSTP is also engaged in an emerging national coordination 
requirement for medium-resolution land imaging data. I have directed an 
interagency working group to address the long-term continuity of 
Landsat-type data through an effort known as the Future of Land Imaging 
(FLI) Plan. As you know, the Landsat Data Continuity Mission (LDCM) is 
currently in procurement in NASA and is scheduled for launch in 2011. 
The Landsat interagency working group is developing the FLI plan for 
extending these important systems beyond LDCM and into the future. The 
group's report is currently in clearance and will be published within 
the next two months.
    Thank you for your interest in and support for these issues, 
including not only the NPOESS-related sensor studies but also the other 
Earth-observing topics that I have mentioned. There certainly are 
further challenges ahead in addressing these topics, but we are making 
progress and are working closely with interested agencies in devising 
the way forward. I would be pleased to respond to questions.

                  Biography for John H. Marburger, III
    John H. Marburger, III, Science Adviser to the President and 
Director of the Office of Science and Technology Policy, was born on 
Staten Island, N.Y., grew up in Maryland near Washington D.C. and 
attended Princeton University (B.A., Physics 1962) and Stanford 
University (Ph.D., Applied Physics 1967). Before his appointment in the 
Executive Office of the President, he served as Director of Brookhaven 
National Laboratory from 1998, and as the third President of the State 
University of New York at Stony Brook (1980-1994). He came to Long 
Island in 1980 from the University of Southern California where he had 
been a Professor of Physics and Electrical Engineering, serving as 
Physics Department Chairman and Dean of the College of Letters, Arts 
and Sciences in the 1970's. In the fall of 1994 he returned to the 
faculty at Stony Brook, teaching and doing research in optical science 
as a University Professor. Three years later he became President of 
Brookhaven Science Associates, a partnership between the university and 
Battelle Memorial Institute that competed for and won the contract to 
operate Brookhaven National Laboratory.
    While at the University of Southern California, Marburger 
contributed to the rapidly growing field of nonlinear optics, a subject 
created by the invention of the laser in 1960. He developed theory for 
various laser phenomena and was a co-founder of the University of 
Southern California's Center for Laser Studies. His teaching activities 
included ``Frontiers of Electronics,'' a series of educational programs 
on CBS television.
    Marburger's presidency at Stony Brook coincided with the opening 
and growth of University Hospital and the development of the biological 
sciences as a major strength of the university. During the 1980's 
federally sponsored scientific research at Stony Brook grew to exceed 
that of any other public university in the northeastern United States.
    During his presidency, Marburger served on numerous boards and 
committees, including chairmanship of the Governor's Commission on the 
Shoreham Nuclear Power facility, and chairmanship of the 80 campus 
``Universities Research Association'' which operates Fermi National 
Accelerator Laboratory near Chicago. He served as a trustee of 
Princeton University and many other organizations. He also chaired the 
highly successful 1991/92 Long Island United Way campaign.
    As a public spirited scientist-administrator, Marburger has served 
local, State and Federal governments in a variety of capacities. He is 
credited with bringing an open, reasoned approach to contentious issues 
where science intersects with the needs and concerns of society. His 
strong leadership of Brookhaven National Laboratory following a series 
of environmental and management crises is widely acknowledged to have 
won back the confidence and support of the community while preserving 
the Laboratory's record of outstanding science.

    Chairman Lampson. Thank you, Dr. Marburger.
    Mr. Powner.

    STATEMENT OF MR. DAVID A. POWNER, DIRECTOR, INFORMATION 
 TECHNOLOGY MANAGEMENT ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Powner. Chairman Lampson, Ranking Member Inglis, and 
Members of the Subcommittee, we appreciate the opportunity to 
testify on NPOESS, a planned satellite system whose life cycle 
costs will now exceed $12 billion.
    NPOESS is critical to our nation's ability to monitor 
changes in weather and the environment. Over the past several 
years NPOESS has experienced significant cost overruns and 
delays due to sensor development problems, poor contractor 
performance and program management, and inadequate executive 
level involvement that led to a June, 2006, decision to 
restructure the program.
    This decision decreased the complexity of the program by 
reducing the number of sensors, increased the estimated cost by 
$4 billion, and delayed the launches of satellites by three to 
five years. Since then the NPOESS program has made progress and 
is currently being managed with much more rigor than we have 
previously seen as part of our numerous reviews for this 
committee.
    However, we remain concerned about its remaining risks; the 
interagency management of this tri-agency program, the 
premature rotation of the program's key executive, continued 
staffing shortages, and whether this program can be executed 
within the $12.5 billion life cycle cost estimate.
    Before expanding on each of these concerns, General Mashiko 
and her team deserve credit for increasing program oversight, 
instituting more frequent and rigorous program reviews, and 
holding NPOESS's contractors more accountable. In addition, 
this committee's oversight role has been instrumental in 
driving these management improvements. Despite these efforts, 
the NPOESS program is still fraught with risks. Recent program 
assessments to NPOESS's Executive Committee rate the cost, 
schedule, technical and funding status each as yellow. Our 
report being released today\8\ highlights the major technical 
risks associated with two critical sensors known as VIIRS and 
CrIS. Specifically, VIIRS has experienced problems during 
testing with image quality and reliability, and CrIS failed 
during vibration testing. Both sensors remain high risk.
---------------------------------------------------------------------------
    \8\ Polar-Orbiting Operational Environmental Satellites: 
Restructuring Is Underway But Technical Challenges and Risks Remain. 
Government Accountability Office Report GAO-07-498; April 27, 2007.
---------------------------------------------------------------------------
    We also remain concerned about the interagency coordination 
and commitment required to effectively manage this tri-agency 
program. Following last summer's restructuring, the Secretaries 
of Defense and Commerce and the Administrator of NASA were 
required to sign a revised memorandum of agreement by August, 
2006, and revise and approve key acquisition documents a month 
later. To date this has not occurred, and this executive level 
foot-dragging is unacceptable.
    This is more than a paper exercise since finalizing these 
documents is critical to insuring interagency agreements and 
will allow the programs to move forward in completing a new 
baseline and contract by next month.
    We also remain concerned about having the right people on 
board to effectively oversee and manage this program. DOD's 
plans for reassigning the Program Executive Officer (PEO) next 
month increases the program's risk. Establishing the PEO 
structure and having a seasoned executive in this role has 
streamlined executive decision-making and has resulted in more 
aggressive risk management throughout the program. The PEO has 
only been in this position for 19 months. Given that the 
program is currently still being restructured and that 
significant challenges remain, this move adds unnecessary risks 
to an already risky program.
    In addition, the NPOESS program still lacks key staff 
needed to effectively manage this program. These staff include 
systems engineers and budget and cost analysts. As a result the 
program lacks the staff it needs to oversee the technical 
aspects of the program and assess contractor costs and progress 
reports.
    Finally, we remain skeptical of the program's ability to 
execute within the $12.5 billion. Specifically, the costs will 
likely increase due to the technical problems associated with 
key sensors. In addition, the contractors' preliminary estimate 
of the restructured program is higher than current estimates. 
The extent of these increases should be known next month when 
contractor negotiations are expected to conclude.
    In summary, Mr. Chairman, despite some progress, NPOESS is 
far from being out of the woods. Moving forward, it is 
essential that the program aggressively manage its remaining 
developmental risks--especially those associated with high-risk 
sensors--approve key documents to assure tri-agency agreement 
and commitment is in place, staff key positions to ensure the 
right folks are on-board--especially in the engineering and 
cost areas--and strongly consider reevaluating the reassignment 
of the PEO until next summer when key sensors are to be 
delivered for NPOESS's demonstration satellite. Failing to 
address any of these concerns will lead to additional cost 
increases and scheduled delays.
    This concludes my statement. Thank you for your leadership 
and oversight of this critical acquisition.
    [The prepared statement of Mr. Powner follows:]

                 Prepared Statement of David A. Powner

Mr. Chairman and Members of the Subcommittee:

    We appreciate the opportunity to participate in today's hearing to 
discuss our work on the $12.5 billion dollar National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) program. NPOESS is 
expected to be a state-of-the-art, environment-monitoring satellite 
system that will replace two existing polar-orbiting environmental 
satellite systems. Polar-orbiting satellites provide data and imagery 
that are used by weather forecasters, climatologists, and the military 
to map and monitor changes in weather, climate, the oceans, and the 
environment. The NPOESS program is considered critical to the United 
States' ability to maintain the continuity of data required for weather 
forecasting (including severe weather events such as hurricanes) and 
global climate monitoring through the year 2026.
    Three agencies share responsibility for the NPOESS program: the 
Department of Commerce's National Oceanic and Atmospheric 
Administration (NOAA), the Department of Defense (DOD)/United States 
Air Force, and the National Aeronautics and Space Administration 
(NASA). To manage the NPOESS program, these agencies established a tri-
agency integrated program office. In recent years, the program has 
experienced escalating costs, schedule delays, and technical 
difficulties, which led to a June 2006 decision to restructure it. This 
decision decreased the complexity of the program by reducing the number 
of satellites and sensors, increased the estimated cost of the program 
to $12.5 billion, and delayed the launches of the first two satellites 
by three and five years, respectively.
    As requested, this statement summarizes a report being released 
today that (1) assesses the NPOESS program office's progress in 
restructuring the acquisition, (2) evaluates the program office's 
progress in establishing an effective management structure, and (3) 
identifies the status and key risks facing the program's major 
segments.\1\ The report includes recommendations to NOAA, NASA, and DOD 
to facilitate the restructuring of the program and to reduce program 
risks. In preparing this testimony, we relied on our work supporting 
the accompanying report. That report contains a detailed overview of 
our scope and methodology. All the work on which this testimony is 
based was performed in accordance with generally accepted government 
auditing standards.
---------------------------------------------------------------------------
    \1\ GAO, Polar-Orbiting Operational Environmental Satellites: 
Restructuring Is Under Way, but Technical Challenges and Risks Remain, 
GAO-07-498 (Washington, D.C.: Apr. 27, 2007).
---------------------------------------------------------------------------

Results in Brief

    The NPOESS program office has made progress in restructuring the 
acquisition by establishing and implementing interim program plans 
guiding contractors' work activities in 2006 and 2007; however, 
important tasks remain to be done. Although the program office 
developed key acquisition documents (including a memorandum of 
agreement on the roles and responsibilities of the three agencies, a 
revised acquisition strategy, and a system engineering plan) the 
responsible executives in the three agencies have not yet approved 
these documents--even though they were due by September 1, 2006. Delays 
in finalizing these documents could hinder plans to complete contract 
negotiations by July 2007 and could keep the program from moving 
forward in fiscal year 2008 with a new program baseline.
    The program office has also made progress in establishing an 
effective management structure by adopting a new organizational 
framework with increased oversight from program executives and by 
instituting more frequent and rigorous program management reviews; 
however, planned changes in executive management will likely increase 
program risk. Additionally, the program lacks a process and plan for 
identifying and filling staffing shortages, which has led to delays in 
key activities such as cost estimating and contract revisions. As of 
June 2007, key positions remain to be filled.
    Development and testing of major program segments--including key 
sensors and the ground systems--are under way, but significant risks 
remain. For example, work continues on key sensors, but two sensors--
the visible/infrared imager radiometer suite and the crosstrack 
infrared sounder--have continued to experience significant 
difficulties. Additionally, while significant progress has been made in 
reducing delays in the NPOESS data processing system, much work remains 
in refining the algorithms needed to translate sensor observations into 
usable weather products. Continued sensor problems could cause further 
cost increases or schedule delays. Given the tight time frames for 
completing key sensors, integrating them with the demonstration 
spacecraft (called the NPOESS Preparatory Project or NPP), and 
developing, testing, and deploying the ground-based data processing 
systems, it will be important for the Integrated Program Office, the 
Program Executive Office, and the Executive Committee to continue to 
provide close oversight of milestones and risks.
    In our report, we made recommendations to the Secretaries of 
Commerce and Defense and to the Administrator of NASA to ensure that 
the appropriate executives finalize key acquisition documents in order 
to allow the restructuring of the program to proceed. We made 
recommendations to the Secretary of Defense to direct the Air Force to 
delay reassigning the recently appointed Program Executive Officer 
until key program risks are resolved. We also made recommendations to 
the Secretary of Commerce to ensure that NPOESS program authorities 
develop and implement a written process for identifying and addressing 
human capital needs and that they establish a plan to immediately fill 
needed positions. In written comments, all three agencies agreed that 
it was important to finalize key acquisition documents in a timely 
manner, and DOD proposed extending the due dates for the documents to 
July 2, 2007. In addition, the Department of Commerce concurred with 
our recommendation to identify and address human capital needs and 
immediately fill open positions in the NPOESS program office. Commerce 
noted that NOAA was taking actions in both areas.
    However, DOD did not concur with our recommendation to delay 
reassigning the Program Executive Officer, noting that the Program 
Director responsible for the acquisition program would remain in place 
for four years. While it is important that the System Program Director 
remain in place to ensure continuity in executing the acquisition, this 
position does not ensure continuity in the important oversight and 
coordination functions provided by the current Program Executive 
Officer. We remain concerned that reassigning the Program Executive at 
a time when NPOESS is still facing critical cost, schedule, and 
technical challenges will place the program at further risk.

Background

    Since the 1960s, the United States has operated two separate 
operational polar-orbiting meteorological satellite systems: the Polar-
orbiting Operational Environmental Satellite (POES) series--managed by 
NOAA--and the Defense Meteorological Satellite Program (DMSP)--managed 
by the Air Force. These satellites obtain environmental data that are 
processed to provide graphical weather images and specialized weather 
products. These satellite data are also the predominant input to 
numerical weather prediction models, which are a primary tool for 
forecasting weather three or more days in advance--including 
forecasting the path and intensity of hurricanes. The weather products 
and models are used to predict the potential impact of severe weather 
so that communities and emergency managers can help prevent and 
mitigate their effects. Polar satellites also provide data used to 
monitor environmental phenomena, such as ozone depletion and drought 
conditions, as well as data sets that are used by researchers for a 
variety of studies such as climate monitoring.

NPOESS Overview

    With the expectation that combining the POES and DMSP programs 
would reduce duplication and result in sizable cost savings, a May 1994 
Presidential Decision Directive required NOAA and DOD to converge the 
two satellite programs into a single satellite program capable of 
satisfying both civilian and military requirements.\2\ The converged 
program, NPOESS, is considered critical to the United States' ability 
to maintain the continuity of data required for weather forecasting and 
global climate monitoring through the year 2026. To manage this 
program, DOD, NOAA, and NASA formed a tri-agency Integrated Program 
Office, located within NOAA.
---------------------------------------------------------------------------
    \2\ Presidential Decision Directive NSTC-2 (May 5, 1994).
---------------------------------------------------------------------------
    Within the program office, each agency has the lead on certain 
activities: NOAA has overall program management responsibility for the 
converged system and for satellite operations; DOD has the lead on the 
acquisition; and NASA has primary responsibility for facilitating the 
development and incorporation of new technologies into the converged 
system. NOAA and DOD share the costs of funding NPOESS, while NASA 
funds specific technology projects and studies. The NPOESS program 
office is overseen by an Executive Committee, which is made up of the 
Administrators of NOAA and NASA and the Under Secretary of the Air 
Force.
    NPOESS is a major system acquisition that was originally estimated 
to cost about $6.5 billion over the 24-year life of the program from 
its inception in 1995 through 2018. The program is to provide satellite 
development, satellite launch and operation, and ground-based satellite 
data processing. These deliverables are grouped into four main 
categories: (1) the space segment, which includes the satellites and 
sensors; (2) the integrated data processing segment, which is the 
system for transforming raw data into environmental data records (EDR) 
and is to be located at four data processing centers; (3) the command, 
control, and communications segment, which includes the equipment and 
services needed to support satellite operations; and (4) the launch 
segment, which includes launch vehicle services.
    When the NPOESS engineering, manufacturing, and development 
contract was awarded in August 2002, the cost estimate was adjusted to 
$7 billion. Acquisition plans called for the procurement and launch of 
six satellites over the life of the program, as well as the integration 
of 13 instruments--consisting of 10 environmental sensors and three 
subsystems. Together, the sensors were to receive and transmit data on 
atmospheric, cloud cover, environmental, climatic, oceanographic, and 
solar-geophysical observations. The subsystems were to support non-
environmental search and rescue efforts, sensor survivability, and 
environmental data collection activities. The program office considered 
four of the sensors to be critical because they provide data for key 
weather products; these sensors are in bold in Table 1, which describes 
each of the expected NPOESS instruments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition, a demonstration satellite (called the NPOESS 
Preparatory Project or NPP) was planned to be launched several years 
before the first NPOESS satellite in order to reduce the risk 
associated with launching new sensor technologies and to ensure 
continuity of climate data with NASA's Earth Observing System 
satellites. NPP is to host three of the four critical NPOESS sensors 
(VIIRS, CrIS, and ATMS), as well as one other noncritical sensor 
(OMPS). NPP is to provide the program office and the processing centers 
an early opportunity to work with the sensors, ground control, and data 
processing systems.
    When the NPOESS development contract was awarded, the schedule for 
launching the satellites was driven by a requirement that the 
satellites be available to back up the final POES and DMSP satellites 
should anything go wrong during the planned launches of these 
satellites. Early program milestones included (1) launching NPP by May 
2006, (2) having the first NPOESS satellite available to back up the 
final POES satellite launch in March 2008, and (3) having the second 
NPOESS satellite available to back up the final DMSP satellite launch 
in October 2009. If the NPOESS satellites were not needed to back up 
the final predecessor satellites, their anticipated launch dates would 
have been April 2009 and June 2011, respectively.

NPOESS Experienced Cost Increases, Schedule Delays, and Technical 
                    Problems Over Several Years

    Over the last few years, NPOESS has experienced continued cost 
increases and schedule delays, requiring difficult decisions to be made 
about the program's direction and capabilities. In 2003, we reported 
that changes in the NPOESS funding stream led the program to develop a 
new program cost and schedule baseline.\3\ After this new baseline was 
completed in 2004, we reported that the program office increased the 
NPOESS cost estimate from about $7 billion to $8.1 billion; delayed key 
milestones, including the planned launch of the first NPOESS 
satellite--which was delayed by seven months; and extended the life of 
the program from 2018 to 2020.\4\ At that time, we also noted that 
other factors could further affect the revised cost and schedule 
estimates. Specifically, the contractor was not meeting expected cost 
and schedule targets on the new baseline because of technical issues in 
the development of key sensors, including the critical VIIRS sensor. 
Based on its performance through May 2004, we estimated that the 
contractor would most likely overrun its contract at completion in 
September 2011 by $500 million--thereby increasing the projected life 
cycle cost to $8.6 billion. The program office's baseline cost estimate 
was subsequently adjusted to $8.4 billion.
---------------------------------------------------------------------------
    \3\ GAO, Polar-orbiting Environmental Satellites Project Risks 
Could Affect Weather Data Needed by Civilian and Military Users, GAO-
03-987T (Washington, D.C.: July 15, 2003).
    \4\ GAO, Polar-orbiting Environmental Satellites Information on 
Program Cost and Schedule Changes, GAO-04-1054 (Washington, D.C.: Sept. 
30, 2004).
---------------------------------------------------------------------------
    In mid-November 2005, we reported that NPOESS continued to 
experience problems in the development of a key sensor, resulting in 
schedule delays and anticipated cost increases.\5\ At that time, we 
projected that the program's cost estimate had grown to about $10 
billion based on contractor cost and schedule data. We reported that 
the program's issues were due, in part, to problems at multiple levels 
of management--including subcontractor, contractor, program office, and 
executive leadership. Recognizing that the budget for the program was 
no longer executable, the NPOESS Executive Committee planned to make a 
decision in December 2005 on the future direction of the program--what 
would be delivered, at what cost, and by when. This involved deciding 
among options involving increased costs, delayed schedules, and reduced 
functionality. We noted that continued oversight, strong leadership, 
and timely decision-making were more critical than ever, and we urged 
the committee to make a decision quickly so that the program could 
proceed.
---------------------------------------------------------------------------
    \5\ GAO, Polar-orbiting Operational Environmental Satellites: 
Technical Problems, Cost Increases, and Schedule Delays Trigger Need 
for Difficult Trade-off Decisions, GAO-06-249T (Washington, D.C.: Nov. 
16, 2005).
---------------------------------------------------------------------------
    However, we subsequently reported that, in late November 2005, 
NPOESS cost growth exceeded a legislatively mandated threshold that 
requires DOD to certify the program to Congress.\6\ This placed any 
decision about the future direction of the program on hold until the 
certification took place in June 2006. In the meantime, the program 
office implemented an interim program plan for fiscal year 2006 to 
continue work on key sensors and other program elements using fiscal 
year 2006 funding.
---------------------------------------------------------------------------
    \6\ GA0, Polar-orbiting Operational Environmental Satellites: Cost 
Increases Trigger Review and Place Program's Direction on Hold, GAO-06-
573T (Washington, D.C.: Mar. 30, 2006).
---------------------------------------------------------------------------

Nunn-McCurdy Process Led to a Decision to Restructure the NPOESS 
                    Program

    The Nunn-McCurdy law requires DOD to take specific actions when a 
major defense acquisition program exceeds certain cost increase 
thresholds.\7\ The law requires the Secretary of Defense to notify 
Congress when a major defense acquisition is expected to overrun its 
project baseline by 15 percent or more and to certify the program to 
Congress when it is expected to overrun its baseline by 25 percent or 
more.\8\ In late November 2005, NPOESS exceeded the 25 percent 
threshold, and DOD was required to certify the program. Certifying a 
program entailed providing a determination that (1) the program is 
essential to national security, (2) there are no alternatives to the 
program that will provide equal or greater military capability at less 
cost, (3) the new estimates of the program's cost are reasonable, and 
(4) the management structure for the program is adequate to manage and 
control costs. DOD established tri-agency teams--made up of DOD, NOAA, 
and NASA experts--to work on each of the four elements of the 
certification process.
---------------------------------------------------------------------------
    \7\ 10 U.S.C. 2433 is commonly referred to as Nunn-McCurdy.
    \8\ 10 U.S.C. 2433 (e)(2) has recently been amended by Pub. L. No. 
109-163, 802 (Jan. 6, 2006) and Pub. L. No. 109-364, 213 (a) (Oct. 
17, 2006).
---------------------------------------------------------------------------
    In June 2006, DOD (with the agreement of both of its partner 
agencies) certified a restructured NPOESS program, estimated to cost 
$12.5 billion through 2026.\9\ This decision approved a cost increase 
of $4 billion over the prior approved baseline cost and delayed the 
launch of NPP and the first two satellites by roughly three to five 
years. The new program also entailed establishing a stronger program 
management structure, reducing the number of satellites to be produced 
and launched from six to four, and reducing the number of instruments 
on the satellites from 13 to nine--consisting of seven environmental 
sensors and two subsystems. It also entailed using NPOESS satellites in 
the early morning and afternoon orbits and relying on European 
satellites for midmorning orbit data.\10\ Table 2 summarizes the major 
program changes made under the Nunn-McCurdy certification decision.
---------------------------------------------------------------------------
    \9\ DOD estimated that the acquisition portion of the certified 
program would cost $11.5 billion. The acquisition portion includes 
satellite development, production, and launch, but not operations and 
support costs after launch. When combined with an estimated $1 billion 
for operations and support after launch, this brings the program life 
cycle cost to $12.5 billion.
    \10\ The European Organization for the Exploitation of 
Meteorological Satellite's MetOp program is a series of three polar-
orbiting satellites dedicated to operational meteorology. MetOp 
satellites are planned to be launched sequentially over 14 years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Nunn-McCurdy certification decision established new milestones 
for the delivery of key program elements, including launching NPP by 
January 2010,\11\ launching the first NPOESS satellite (called C1) by 
January 2013, and launching the second NPOESS satellite (called C2) by 
January 2016. These revised milestones deviated from prior plans to 
have the first NPOESS satellite available to back up the final POES 
satellite should anything go wrong during that launch.
---------------------------------------------------------------------------
    \11\ According to program officials, although the Nunn-McCurdy 
certification decision specifies that NPP is to launch by January 2010, 
NASA plans to launch it by September 2009 to reduce the possibility of 
a climate data continuity gap.
---------------------------------------------------------------------------
    Delaying the launch of the first NPOESS satellite means that if the 
final POES satellite fails on launch, satellite data users would need 
to rely on the existing constellation of environmental satellites until 
NPP data become available--almost two years later. Although NPP was not 
intended to be an operational asset, NASA agreed to move NPP to a 
different orbit so that its data would be available in the event of a 
premature failure of the final POES satellite. However, NPP will not 
provide all of the operational capability planned for the NPOESS 
spacecraft. If the health of the existing constellation of satellites 
diminishes--or if NPP data are not available, timely, and reliable--
then there could be a gap in environmental satellite data. Table 3 
summarizes changes in key program milestones over time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In order to reduce program complexity, the Nunn-McCurdy 
certification decision decreased the number of NPOESS sensors from 13 
to nine and reduced the functionality of four sensors. Specifically, of 
the 13 original sensors, five sensors remain unchanged, three were 
replaced with less capable sensors, one was modified to provide less 
functionality, and four were canceled. Table 4 shows the changes to 
NPOESS sensors, including the four identified in bold as critical 
sensors.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The changes in NPOESS sensors affected the number and quality of 
the resulting weather and environmental products, called environmental 
data records or EDRs. In selecting sensors for the restructured 
program, the agencies placed the highest priority on continuing current 
operational weather capabilities and a lower priority on obtaining 
selected environmental and climate measuring capabilities. As a result, 
the revised NPOESS system has significantly less capability for 
providing global climate measures than was originally planned. 
Specifically, the number of EDRs was decreased from 55 to 39, of which 
six are of a reduced quality. The 39 EDRs that remain include cloud 
base height, land surface temperature, precipitation type and rate, and 
sea surface winds. The 16 EDRs that were removed include cloud particle 
size and distribution, sea surface height, net solar radiation at the 
top of the atmosphere, and products to depict the electric fields in 
the space environment. The six EDRs that are of a reduced quality 
include ozone profile, soil moisture, and multiple products depicting 
energy in the space environment.

NPOESS Acquisition Restructuring Is Well Under Way, But Key Steps 
                    Remain to Be Completed

    Since the June 2006 decision to revise the scope, cost, and 
schedule of the NPOESS program, the program office has made progress in 
restructuring the satellite acquisition; however, important tasks 
remain to be done. Restructuring a major acquisition program like 
NPOESS is a process that involves identifying time-critical and high-
priority work and keeping this work moving forward, while reassessing 
development priorities, inter-dependencies, deliverables, risks, and 
costs. It also involves revising important acquisition documents 
including the memorandum of agreement on the roles and responsibilities 
of the three agencies, the acquisition strategy, the system engineering 
plan, the test and evaluation master plan, the integrated master 
schedule defining what needs to happen by when, and the acquisition 
program baseline. Specifically, the Nunn-McCurdy certification decision 
required the Secretaries of Defense and Commerce and the Administrator 
of NASA to sign a revised memorandum of agreement by August 6, 2006. It 
also required that the program office, Program Executive Officer, and 
the Executive Committee revise and approve key acquisition documents 
including the acquisition strategy and system engineering plan by 
September 1, 2006, in order to proceed with the restructuring. Once 
these are completed, the program office can proceed to negotiate with 
its prime contractor on a new program baseline defining what will be 
delivered, by when, and at what cost.
    The NPOESS program office has made progress in restructuring the 
acquisition. Specifically, the program office has established interim 
program plans guiding the contractor's work activities in 2006 and 2007 
and has made progress in implementing these plans. The program office 
and contractor also developed an integrated master schedule for the 
remainder of the program--beyond fiscal year 2007. This integrated 
master schedule details the steps leading up to launching NPP by 
September 2009, launching the first NPOESS satellite in January 2013, 
and launching the second NPOESS satellite in January 2016. Near-term 
steps include completing and testing the VIIRS, CrIS, and OMPS sensors; 
integrating these sensors with the NPP spacecraft and completing 
integration testing; completing the data processing system and 
integrating it with the command, control, and communications segment; 
and performing advanced acceptance testing of the overall system of 
systems for NPP.
    However, key steps remain for the acquisition restructuring to be 
completed. Although the program office made progress in revising key 
acquisition documents, including the system engineering plan, the test 
and evaluation master plan, and the acquisition strategy plan, it has 
not yet obtained the approval of the Secretaries of Commerce and 
Defense and the Administrator of NASA on the memorandum of agreement 
among the three agencies, nor has it obtained the approval of the 
NPOESS Executive Committee on the other key acquisition documents. As 
of June 2007, these approvals are over nine months past due. Agency 
officials noted that the September 1, 2006, due date for the key 
acquisition documents was not realistic given the complexity of 
coordinating documents among three different agencies.
    Finalizing these documents is critical to ensuring interagency 
agreement and will allow the program office to move forward in 
completing other activities related to restructuring the program. These 
other activities include completing an integrated baseline review with 
the contractor to reach agreement on the schedule and work activities, 
and finalizing changes to the NPOESS development and production 
contract. Program costs are also likely to be adjusted during upcoming 
negotiations on contract changes--an event that the Program Director 
expects to occur by July 2007. Completion of these activities will 
allow the program office to lock down a new acquisition baseline cost 
and schedule. Until key acquisition documents are finalized and 
approved, the program faces increased risk that it will not be able to 
complete important restructuring activities in time to move forward in 
fiscal year 2008 with a new program baseline in place. This places the 
NPOESS program at risk of continued delays and future cost increases.

Progress Has Been Made in Establishing an Effective NPOESS Management 
                    Structure, But Executive Turnover Increases Risks 
                    and Staffing Problems Remain

    The NPOESS program has made progress in establishing an effective 
management structure, but--almost a year after this structure was 
endorsed during the Nunn-McCurdy certification process--the Integrated 
Program Office still faces staffing problems. Over the past few years, 
we and others have raised concerns about management problems at all 
levels of the NPOESS program, including subcontractor and contractor 
management, program office management, and executive-level 
management.\12\ Two independent review teams also noted a shortage of 
skilled program staff, including budget analysts and system engineers. 
Since that time, the NPOESS program has made progress in establishing 
an effective management structure--including establishing a new 
organizational framework with increased oversight by program 
executives, instituting more frequent subcontractor, contractor, and 
program reviews, and effectively managing risks and performance. 
However, DOD's plans for reassigning the Program Executive Officer in 
the summer of 2007 increase the program's risks. Additionally, the 
program lacks a staffing process that clearly identifies staffing 
needs, gaps, and plans for filling those gaps. As a result, the program 
office has experienced delays in getting core management activities 
under way and lacks the staff it needs to execute day-to-day management 
activities.
---------------------------------------------------------------------------
    \12\ GAO-06-249T; U.S. Department of Commerce, Office of the 
Inspector General, Poor Management Oversight and Ineffective Incentives 
Leave NPOESS Program Well Over Budget and Behind Schedule, OIG-17794-6-
0001/2006 (Washington, D.C.: May 2006). In addition, two independent 
teams reviewed the NPOESS program in 2005: A NASA-led Independent 
Review Team investigated problems with the VIIRS sensor and the impact 
on NPP, and a DOD-led Independent Program Assessment Team assessed the 
broader NPOESS program. The teams briefed the NPOESS Executive 
Committee on their findings in August 2005 and November 2005, 
respectively.
---------------------------------------------------------------------------

NPOESS Program Has Made Progress in Establishing an Effective 
                    Management Structure and Increasing Oversight 
                    Activities, But Executive Turnover Will Increase 
                    Program Risks

    The NPOESS program has made progress in establishing an effective 
management structure and increasing the frequency and intensity of its 
oversight activities. Over the past few years, we and others have 
raised concerns about management problems at all levels of management 
on the NPOESS program, including subcontractor and contractor 
management, program office management, and executive-level management. 
In response to recommendations made by two different independent review 
teams, the program office began exploring options in late 2005 and 
early 2006 for revising its management structure.
    In November 2005, the Executive Committee established and filled a 
Program Executive Officer position, senior to the NPOESS Program 
Director, to streamline decision making and to provide oversight to the 
program. This Program Executive Officer reports directly to the 
Executive Committee. Subsequently, the Program Executive Officer and 
the Program Director proposed a revised organizational framework that 
realigned division managers within the Integrated Program Office 
responsible for overseeing key elements of the acquisition and 
increased staffing in key areas. In June 2006, the Nunn-McCurdy 
certification decision approved this new management structure and the 
Integrated Program Office implemented it. Figure 1 provides an overview 
of the relationships among the Integrated Program Office, the Program 
Executive Office, and the Executive Committee, as well as key divisions 
within the program office.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Operating under this new management structure, the program office 
implemented more rigorous and frequent subcontractor, contractor, and 
program reviews, improved visibility into risk management and 
mitigation activities, and institutionalized the use of earned value 
management techniques to monitor contractor performance. In addition to 
these program office activities, the Program Executive Officer 
implemented monthly program reviews and increased the frequency of 
contacts with the Executive Committee. The Program Executive Officer 
briefs the Executive Committee in monthly letters, apprising committee 
members of the program's status, progress, risks, and earned value, and 
the Executive Committee now meets on a quarterly basis--whereas in the 
recent past, we reported that the Executive Committee had met only five 
times in two years.\13\
---------------------------------------------------------------------------
    \13\ GAO-06-249T.
---------------------------------------------------------------------------
    Although the NPOESS program has made progress in establishing an 
effective management structure, this progress is currently at risk. We 
recently reported that DOD space acquisitions are at increased risk due 
in part to frequent turnover in leadership positions, and we suggested 
that addressing this will require DOD to consider matching officials' 
tenure with the development or delivery of a product.\14\ In March 
2007, NPOESS program officials stated that DOD is planning to reassign 
the recently appointed Program Executive Officer in the summer 2007 as 
part of this executive's natural career progression. As of June 2007, 
the Program Executive Officer has held this position for 19 months. 
Given that the program is currently still being restructured, and that 
there are significant challenges in being able to meet critical 
deadlines to ensure satellite data continuity, such a move adds 
unnecessary risk to an already risky program.
---------------------------------------------------------------------------
    \14\ GAO, Space Acquisitions: Improvements Needed in Space 
Acquisitions and Keys to Achieving Them, GAO-06-626T (Washington, D.C.: 
Apr. 6, 2006).
---------------------------------------------------------------------------

NPOESS Program Has Filled Key Vacancies but Lacks a Program-wide 
                    Staffing Process

    The NPOESS program office has filled key vacancies but lacks a 
staffing process that identifies program-wide staffing requirements and 
plans for filling those needed positions. Sound human capital 
management calls for establishing a process or plan for determining 
staffing requirements, identifying any gaps in staffing, and planning 
to fill critical staffing gaps. Program office staffing is especially 
important for NPOESS, given the acknowledgment by multiple independent 
review teams that staffing shortfalls contributed to past problems. 
Specifically, these review teams noted shortages in the number of 
system engineers needed to provide adequate oversight of subcontractor 
and contractor engineering activities and in the number of budget and 
cost analysts needed to assess contractor cost and earned value 
reports. To rectify this situation, the June 2006 certification 
decision directed the Program Director to take immediate actions to 
fill vacant positions at the program office with the approval of the 
Program Executive Officer.
    Since the June 2006 decision to revise NPOESS management structure, 
the program office has filled multiple critical positions, including a 
budget officer, a chief system engineer, an algorithm division chief, 
and a contracts director. In addition, on an ad hoc basis, individual 
division managers have assessed their needs and initiated plans to hire 
staff for key positions. However, the program office lacks a program-
wide process for identifying and filling all needed positions. As a 
result, division managers often wait months for critical positions to 
be filled. For example, in February 2006, the NPOESS program estimated 
that it needed to hire up to 10 new budget analysts. As of September 
2006, none of these positions had been filled. As of April 2007, 
program officials estimated that they still needed to fill five budget 
analyst positions, five systems engineering positions, and 10 technical 
manager positions. The majority of the vacancies--four of the five 
budget positions, four of the five systems engineering positions, and 
eight of the 10 technical manager positions--are to be provided by 
NOAA. NOAA officials noted that each of these positions is in some 
stage of being filled--that is, recruitment packages are being 
developed or reviewed, vacancies are being advertised, or candidates 
are being interviewed, selected, and approved.
    The program office attributes its staffing delays to not having the 
right personnel in place to facilitate this process, and it did not 
even begin to develop a staffing process until November 2006. Program 
officials noted that the tri-agency nature of the program adds unusual 
layers of complexity to the hiring and administrative functions because 
each agency has its own hiring and performance management rules. In 
November 2006, the program office brought in an administrative officer 
who took the lead in pulling together the division managers' individual 
assessments of needed staff and has been working with the division 
managers to refine this list. This new administrative officer plans to 
train division managers in how to assess their needs and to hire needed 
staff, and to develop a process by which evolving needs are identified 
and positions axe filled. However, there is as yet no date set for 
establishing this basic program-wide staffing process. As a result of 
the lack of a program-wide staffing process, there has been an extended 
delay in determining what staff is needed and in bringing those staff 
on board; this has resulted in delays in performing core activities, 
such as establishing the program office's cost estimate and bringing in 
needed contracting expertise. Additionally, until a program-wide 
staffing process is in place, the program office risks not having the 
staff it needs to execute day-to-day management activities.
    In commenting on a draft of our report, Commerce stated that NOAA 
implemented an accelerated hiring model. More recently, the NPOESS 
program office reported that several critical positions were filled in 
April and May 2007. However, we have not yet evaluated NOAA's 
accelerated hiring model and, as of June 2007, over 10 key positions 
remain to be filled.

Major Program Segments Are Under Development, But Significant Risks 
                    Remain

    Major segments of the NPOESS program--the space segment and ground 
systems segment--are under development; however, significant problems 
have occurred and risks remain. The program office is aware of these 
risks and is working to mitigate them, but continued problems could 
affect the program's overall cost and schedule. Given the tight time 
frames for completing key sensors, integrating them on the NPP 
spacecraft, and developing, testing, and deploying the ground-based 
data processing systems, it will be important for the NPOESS Integrated 
Program Office, the Program Executive Office, and the Executive 
Committee to continue to provide close oversight of milestones and 
risks.
Space Segment--Progress Made, But Key Sensors Continue to Face Major 
        Risks
    The space segment includes the sensors and the spacecraft. Four 
sensors are of critical importance--VIIRS, CrIS, OMPS, and ATMS--
because they are to be launched on the NPP satellite in September 2009. 
Initiating work on another sensor, the Microwave imager/sounder, is 
also important because this new sensor--replacing the canceled CMIS 
sensor--will need to be developed in time for the second NPOESS 
satellite launch. Over the past year, the program made progress on each 
of the sensors and the spacecraft. However, two sensors, VIIRS and 
CrIS, have experienced major problems. The status of each of the 
components of the space segment is described in Table 5.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Program officials regularly track risks associated with various 
NPOESS components and work to mitigate them. Having identified both 
VIIRS and CrIS as high risk, OMPS as moderate risk, and the other 
components as low risk, the program office is working closely with the 
contractors and subcontractors to resolve sensor problems. Program 
officials have identified work-grounds that will allow them to move 
forward in testing the VIIRS engineering unit and have approved the 
flight unit to proceed to a technical readiness review milestone. 
Regarding CrIS, as of March 2007, a failure review board identified 
root causes of its structural failure, identified plans for resolving 
them, and initiated inspections of sensor modules and subsystems for 
damage. An agency official reported that there is sufficient funding in 
the fiscal year 2007 program office's and contractor's management 
reserve funds to allow for troubleshooting both VIIRS and CrIS 
problems. However, until the CrIS failure review board fully determines 
the amount of rework that is necessary to fix the problems, it is 
unknown if additional funds will be needed or if the time frame for 
CrIS's delivery will be delayed. According to agency officials, CrIS is 
not on the program schedule's critical path, and there is sufficient 
schedule margin to absorb the time it will take to conduct a thorough 
failure review process.
    Managing the risks associated with the development of VIIRS and 
CrIS is of particular importance because these components are to be 
demonstrated on the NPP satellite, currently scheduled for launch in 
September 2009. Any delay in the NPP launch date could affect the 
overall NPOESS program, because the success of the program depends on 
the lessons learned in data processing and system integration from the 
NPP satellite. Additionally, continued sensor problems could lead to 
higher final program costs.
Ground Segment-Progress Has Been Made, But Work Remains
    Development of the ground segment--which includes the interface 
data processing system, the ground stations that are to receive 
satellite data, and the ground-based command, control, and 
communications system--is under way and on track. However, important 
work pertaining to developing the algorithms that translate satellite 
data into weather products within the integrated data processing 
segment remains to be completed. Table 6 describes each of the 
components of the ground segment and identifies the status of each.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The NPOESS program office plans to continue to address risks facing 
IDPS development. Specifically, the IDPS team is working to reduce data 
processing delays by seeking to limit the number of data calls, improve 
the efficiency of the data management system, increase the efficiency 
of the algorithms, and increase the number of processors. The program 
office also developed a resource center consisting of a logical 
technical library, a data archive, and a set of analytical tools to 
coordinate, communicate, and facilitate the work of algorithm subject 
matter experts on algorithm development and calibration/validation 
preparations. Managing the risks associated with the development of the 
IDPS system is of particular importance because this system will be 
needed to process NPP data.

Implementation of GAO Recommendations Should Reduce Program Risks

    Because of the importance of effectively managing the NPOESS 
program to ensure that there are no gaps in the continuity of critical 
weather and environmental observations, in our accompanying report\15\ 
we made recommendations to the Secretaries of Defense and Commerce and 
to the Administrator of NASA to ensure that the responsible executives 
within their respective organizations approve key acquisition 
documents, including the memorandum of agreement among the three 
agencies, the system engineering plan, the test and evaluation master 
plan, and the acquisition strategy, as quickly as possible but no later 
than April 30, 2007. We also recommended that the Secretary of Defense 
direct the Air Force to delay reassigning the recently appointed 
Program Executive Officer until all sensors have been delivered to the 
NPOESS Preparatory Program; these deliveries are currently scheduled to 
occur by July 2008. We also made two additional recommendations to the 
Secretary of Commerce to (1) develop and implement a written process 
for identifying and addressing human capital needs and for streamlining 
how the program handles the three different agencies' administrative 
procedures and (2) establish a plan for immediately filling needed 
positions.
---------------------------------------------------------------------------
    \15\ GAO-07-498.
---------------------------------------------------------------------------
    In written comments, all three agencies agreed that it was 
important to finalize key acquisition documents in a timely manner, and 
DOD proposed extending the due dates for the documents to July 2, 2007. 
Because the NPOESS program office intends to complete contract 
negotiations by July 4, 2007, we remain concerned that any further 
delays in approving the documents could delay contract negotiations and 
thus increase the risk to the program.
    In addition, the Department of Commerce agreed with our 
recommendation to develop and implement a written process for 
identifying and addressing human capital needs and to streamline how 
the program handles the three different agencies' administrative 
procedures. The department also agreed with our recommendation to plan 
to immediately fill open positions at the NPOESS program office. 
Commerce noted that NOAA identified the skill sets needed for the 
program and has implemented an accelerated hiring model and schedule to 
fill all NOAA positions in the NPOESS program. Commerce also noted that 
NOAA has made NPOESS hiring a high priority and has documented a 
strategy--including milestones--to ensure that all NOAA positions are 
filled by June 2007.
    DOD did not concur with our recommendation to delay reassigning the 
Program Executive Officer, noting that the NPOESS System Program 
Director responsible for executing the acquisition program would remain 
in place for 4 years. The Department of Commerce also noted that the 
Program Executive Officer position is planned to rotate between the Air 
Force and NOAA. Commerce also stated that a selection would be made 
before the departure of the current Program Executive Officer to 
provide an overlap period to allow for knowledge transfer and ensure 
continuity. However, over the last few years, we and others (including 
an independent review team and the Commerce Inspector General) have 
reported that ineffective executive-level oversight helped foster the 
NPOESS program's cost and schedule overruns. We remain concerned that 
reassigning the Program Executive at a time when NPOESS is still facing 
critical cost, schedule, and technical challenges will place the 
program at further risk.
    In addition, while it is important that the System Program Director 
remain in place to ensure continuity in executing the acquisition, this 
position does not ensure continuity in the functions of the Program 
Executive Officer. The current Program Executive Officer is experienced 
in providing oversight of the progress, issues, and challenges facing 
NPOESS and coordinating with Executive Committee members as well as the 
Defense acquisition authorities. Additionally, while the Program 
Executive Officer position is planned to rotate between agencies, the 
memorandum of agreement documenting this arrangement is still in draft 
and should be flexible enough to allow the current Program Executive 
Officer to remain until critical risks have been addressed.
    Further, while Commerce plans to allow a period of overlap between 
the selection of a new Program Executive Officer and the departure of 
the current one, time is running out. The current Program Executive 
Officer is expected to depart in early July 2007, and as of early June 
2007, a successor has not yet been named. NPOESS is an extremely 
complex acquisition, involving three agencies, multiple contractors, 
and advanced technologies. There is not sufficient time to transfer 
knowledge and develop the sound professional working relationships that 
the new Program Executive Officer will need to succeed in that role. 
Thus, we remain convinced that given NPOESS current challenges, 
reassigning the current Program Executive Officer at this time would 
not be appropriate.
    In summary, NPOESS restructuring is well under way, and the program 
has made progress in establishing an effective management structure. 
However, key steps remain in restructuring the acquisition, including 
completing important acquisition documents such as the system 
engineering plan, the acquisition program baseline, and the memorandum 
of agreement documenting the three agencies' roles and 
responsibilities. Until these key documents are finalized, the program 
is unable to finalize plans for restructuring the program. 
Additionally, the program office continues to have difficulty filling 
key positions and lacks a program-wide staffing process. Until the 
program establishes an effective and repeatable staffing process, it 
will have difficulties in identifying and filling its staffing needs in 
a timely manner. Having insufficient staff in key positions impedes the 
program office's ability to conduct important management and oversight 
activities, including revising cost and schedule estimates, monitoring 
progress, and managing technical risks. The program faces even further 
challenges if DOD proceeds with plans to reassign the Program Executive 
Officer this summer. Such a move would add unnecessary risk to an 
already risky program.
    In addition, the likelihood exists that there will be further cost 
increases and schedule delays because of technical problems on key 
sensors and pending contract negotiations. Major program segments--
including the space and ground segments--are making progress in their 
development and testing. However, two critical sensors have experienced 
problems and are considered high risk, and risks remain in developing 
and implementing the ground-based data processing system. Given the 
tight time frames for completing key sensors, integrating them, and 
getting the ground-based data processing systems developed, tested, and 
deployed, continued close oversight of milestones and risks is 
essential to minimize potential cost increases and schedule delays.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or Members of the Committee may have at 
this time.
    Other key contributors to this testimony include Colleen Phillips 
(Assistant Director), Carol Cha, and Teresa Smith.

                     Biography for David A. Powner

Experience

    Twenty years' experience in information technology issues in both 
public and private sectors.

Education

Business Administration, University of Denver

Senior Executive Fellows Program, Harvard University, John F. Kennedy 
        School of Government
    Dave is Director of IT Management Issues at the U.S. Government 
Accountability Office. He is currently responsible for a large segment 
of GAO's information technology (IT) work, including systems 
development, IT investment management, health IT, and cyber critical 
infrastructure protection reviews.
    In the private sector, Dave has held several executive-level 
positions in the telecommunications industry, including overseeing IT 
and financial internal audits, and software development associated with 
digital subscriber lines (DSL).
    At GAO, Dave has led teams reviewing major IT modernization efforts 
at Cheyenne Mountain Air Force Station, the National Weather Service, 
the Federal Aviation Administration, and the Internal Revenue Service. 
These reviews covered many information technology areas including 
software development maturity, information security, and enterprise 
architecture.

    Chairman Lampson. Thank you, Mr. Powner, for your testimony 
and for being here.
    General Mashiko, you are recognized for five minutes.

   STATEMENT OF BRIGADIER GENERAL SUSAN K. MASHIKO, PROGRAM 
 EXECUTIVE OFFICER FOR ENVIRONMENTAL SATELLITES, UNITED STATES 
                           AIR FORCE

    Brigadier General Mashiko. Chairman Lampson, Ranking Member 
Inglis, and Committee Members, thank you for this opportunity 
to address you today.
    I am responsible for a portfolio of a program that includes 
the orbital operations of the Defense Meteorological Satellite 
Program and the development of the NPOESS program. I report to 
the Administrator of NASA, the Under Secretary of the Air 
Force, and the Under Secretary of Commerce for Oceans and 
Atmosphere. I appreciate this opportunity to discuss with you 
the status of the NPOESS program and thank you for your 
continued interest and support.
    In response to the questions that you sent in your letter 
of invitation concerning the latest status of the program, the 
first question was when will the new program baseline be 
finalized, and when will the contractor renegotiations be 
completed. A new program baseline is finalized. The integrated 
baseline review, our final step, was completed last week, and 
the restructure proposal was received from the contractor, and 
fact finding is, in fact, complete. Negotiations should 
conclude with a contract in July.
    Your second question was what is the current status of the 
key NPOESS sensors, and when will the flight units be delivered 
for incorporation on NPP. The two key sensors as mentioned by 
David Powner, are, in fact, the Visible/Infrared Radiometer 
Suite, or VIIRS, and the Cross-track Infrared Sounder, or CrIS. 
Let me address the VIIRS first.
    I commissioned an independent review team to look at the 
sufficiency of the VIIRS design. The team came back--when they 
reported out--that said the design was basically sound and will 
produce operational weather data to the expected levels. The 
flight unit has recently completed the test readiness review, 
and we will soon initiate acceptance testing leading to its 
delivery in the summer of 2008, for NPP.
    With respect to the Cross-track Infrared Sounder, or CrIS, 
it experienced a structural failure in the final seconds of 
vibration testing in October. A Joint Failure Review Board has 
determined the root cause of this failure, and a systemic 
exoneration of all components is ongoing. This thorough process 
has produced confidence in the flight unit, and this unit will 
resume testing at the system level upon receipt of a 
strengthened frame, supporting delivery in the summer of 2008.
    Your third question was what progress has been made on 
defining the microwave sensor that replaces the canceled CMIS 
instrument. A Request For Information, or RFI, was released to 
industry late last year and based upon the data received from 
that data call, a detailed specification is being developed 
that will meet or exceed the threshold requirements for this 
instrument. A new microwave sensor program will be reviewed by 
my replacement and the EXCOM\9\ in September and, with the 
EXCOM's concurrence, a request for proposal will be released in 
FY 2008.
---------------------------------------------------------------------------
    \9\ EXCOM: Executive Committee Members of the NPOESS Program.
---------------------------------------------------------------------------
    Your final question was are the program and instrument 
contractors currently meeting the milestones set out in the 
fiscal year 2007 interim program plan. In short, yes. The 
contractors are doing well in meeting their cost and schedule 
commitments for the fiscal year 2007 interim program plan. 
Northrop Grumman Space Technology (NGST) is currently slightly 
ahead of plan, having completed 122 milestones, where only 120 
were scheduled.
    With respect to the GAO report, it should be noted that the 
GAO staff has maintained a close vigilance of the NPOESS 
program and attends my monthly program management reviews. 
Their understanding of the program was evident in their recent 
report, and we completely agree that technical challenges and 
risks remain. And we are gratified to see that the GAO notes 
that management changes put in place over the last year are 
paying dividends. Management changes that we and the NPOESS 
prime contractor, NGST, have undertaken are widespread and 
affect every aspect of the execution of this complex satellite 
development. In fact, it is a complete change of approach as we 
move ``back to basics.''
    This is as the government assumes a far more active role in 
the verification of all data and test results. This required 
significant staff additions that have been strongly supported 
by all three agencies. They are looking for truly talented and 
experienced space people, and they are truly hard to come by. 
We currently have a few vacancies in work but all necessary 
actions are progressing.
    In conclusion, NPOESS is one of the most complex 
environmental satellite systems ever developed. The management 
changes that the Government and our prime contractor have put 
in place are making a difference. But please remember we are 
building some truly complex instruments. We have structured a 
stringent test program to uncover problems on the ground rather 
than in orbit. We are structuring the program to respond 
rapidly to any problems with sufficient margin to accommodate 
the difficulties that will arise.
    Thank you for the opportunity to speak to you today.
    [The prepared statement of Brigadier General Mashiko 
follows:]

        Prepared Statement of Brigadier General Susan K. Mashiko

Introduction

    Chairmen Lampson and Miller, Ranking Members Inglis and 
Sensenbrenner, and Members of the Committee, I appreciate the 
opportunity to provide an update of our progress on the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) and to 
comment on the recommendations of the recent Government Accountability 
Office (GAO) report.
    I am Brigadier General Susan K. Mashiko, Program Executive Officer 
for Environmental Satellites. I report to the Executive Committee of 
the NPOESS Program which is comprised of the Administrator of the 
National Aeronautics and Space Administration (NASA), the Under 
Secretary of Commerce for Oceans and Atmosphere, and the Under 
Secretary of the Air Force. I oversee the day-to-day operations of the 
NPOESS Program and interface with other government agencies and 
departments and international partners. I am here today to give you an 
update on the program status and to address the recent GAO report.

Program Background

    First let me review what NPOESS is for the new Committee Members. 
In 1994, after a thorough review and serious consideration, President 
Clinton directed the merger of the military and civilian operational 
polar satellite programs. This new program, NPOESS, is responsible for 
developing the next generation of polar satellites and sensors. The 
program was designed as a series of six satellites and a total of 10 
environmental sensors, five of which represent significant advances 
over current operational satellite technology. The new NPOESS sensors 
will provide higher quality data than the current operational 
meteorological satellites leading to more sophisticated environmental 
models for weather, climate and the oceans.
    The NPOESS Preparatory Project (NPP) is a joint mission involving 
the National Aeronautics and Space Administration (NASA) and the NPOESS 
Integrated Program Office (IPO). The NPP mission will collect and 
distribute remotely-sensed land, ocean, and atmospheric data to the 
meteorological and global climate change communities as the 
responsibility for these measurements transitions from NASA's existing 
Earth-observing missions (e.g., Aqua, Terra and Aura) to the NPOESS. 
NPP also provides risk reduction by testing several new sensors in 
space, ensure the ground control systems work properly, and allow us 
time to assimilate the new data into computer weather models before 
launch of the first operational NPOESS satellite. NPP will provide 
atmospheric and sea surface temperatures, humidity sounding, land and 
ocean biological productivity, and cloud and aerosol properties.
    NPOESS is being acquired using DOD acquisition authorities and is 
managed by an Integrated Program Office (IPO). In 2002, Northrop 
Grumman was selected as the NPOESS prime contractor for spacecraft 
development, ground systems, sensor integration, and operations.
    As many on this committee are aware, in December 2005, the IPO 
notified the Air Force that projected cost overruns would exceed the 25 
percent threshold triggering a breach of the Nunn-McCurdy statute. In 
June 2006, following the Nunn-McCurdy certification and resulting 
restructure of the NPOESS program we are moving forward with two fewer 
satellites, fewer sensors, less risk, cost increases, but also with 
increases in our confidence levels for timely delivery of core weather 
forecasting capabilities, accompanied by a significant reduction in its 
climate monitoring capabilities.
    The GAO report properly notes that the NPOESS program has made 
progress since the June 2006 Nunn-McCurdy certification and we 
completely agree that technical challenges and risk still remain. The 
three agencies involved in the NPOESS development, the Department of 
Commerce (DOC), the Department of Defense (DOD), and NASA continue to 
regularly monitor the development of the NPOESS program. They commit 
their best talent and participate in the decision-making process 
through the NPOESS Executive Committee (EXCOM). The significant 
management changes and the reduced risk profile resulting from the 
Nunn-McCurdy certification and subsequent restructure have had major 
positive impacts on the program. NPOESS still remains, however, the 
most complex environmental satellite system ever developed.
    Over the last eighteen months, the program has taken a disciplined 
acquisition approach to the simultaneous execution of the development 
program and program restructure. Through the creation of discrete, 
measurable, development milestones the NPOESS IPO has fundamentally 
revamped their management style to one of aggressive oversight of the 
contractor. This ``back-to-basics'' approach facilitated the 
reorganization of both government and industry management teams while 
permitting risk reduction to move apace. Most metrics for cost and 
schedule goals have been achieved for this period. As in all 
developmental programs, NPOESS has uncovered and addressed new 
challenges.

Program Status

    The Cross-track Infrared Sounder (CrIS) is intended to provide 
improved measurements of the temperature and moisture profiles in the 
atmosphere allowing forecasters to improve both global and regional 
predictions of weather patterns, storm tracks, and precipitation. In 
October, 2006, CrIS experienced a challenge when a structural component 
broke in the final moments of its vibration test. The failure was fully 
analyzed by a Tri-Agency and industry team and corrective actions are 
underway. This instrument has sufficient schedule margin to ensure that 
the projected 2009 launch of the NPOESS Preparatory Project (NPP) and 
the first NPOESS satellite in 2013 will not, at this time, be affected.
    The Visible/Infrared Imager/Radiometer Suite (VIIRS) collects high 
resolution atmospheric imagery and generates a variety of applied 
products, including visible and infrared imaging of hurricanes and 
detection of wildland fires, smoke, and atmospheric aerosols. The VIIRS 
instrument, which was one of the principal contributors to the Nunn-
McCurdy breach, has completed extensive reviews by both a government 
team from the NPOESS program and an independent team of outside 
experts. Corrective actions for all identified VIIRS instrument 
problems are underway. One major technical issue, optical cross talk, 
remains and we are pursing several potential solutions. The VIIRS 
product most at risk at this point is ocean color, but there are also 
concerns about the atmospheric aerosol products should the cross talk 
problem not be resolved. This key instrument will continue to be the 
focus of intense management attention for the foreseeable future.
    The NPOESS IPO has issued a request for information for a Microwave 
Imager/Sounder (MIS), a smaller, less complex sensor than the original 
Conical-scanning Microwave Imager/Sounder (CMIS). The MIS is still 
intended to provide data for a variety of products including sea 
surface winds. The MIS is scheduled to first fly on the second NPOESS 
spacecraft and then on all subsequent missions. A final acquisition 
strategy decision is anticipated by September 2007, at which time cost 
and schedule information will be available.
    A number of sensors were de-manifested from NPOESS as a result of 
the Nunn-McCurdy process, especially those oriented towards climate 
measurements. At the initiative of the Office of Science and Technology 
Policy (OSTP), NASA and NOAA are working together to identify what 
might be required to provide flight opportunities for the de-manifested 
sensors--either on NPOESS platforms or some other method--to assure 
continuity of key climate parameters such as Earth radiation budget, 
solar irradiance, sea surface topography, ozone vertical profile, and 
aerosol optical properties. OSTP will work with the agencies and the 
Office of Management and Budget to determine if the required resources 
can be identified in the time frame required to protect the climate 
data records.
    The ground and data processing system continues to make excellent 
progress. The NOAA Satellite Operations Facility is up and running and 
flying the heritage NOAA and DOD satellites. The command and control 
software has been fully tested. Early versions of the operational data 
processing system are being tested with real data delivered from 
satellites currently in orbit.
    The program restructure proposal, which culminates 10 months of 
intensive government and industry effort, details all aspects of the 
NPOESS program and has been received from Northrop Grumman Space 
Technology. This proposal provides detailed planning, scheduling and 
resource allocation for the next ten years. The proposal is presently 
in the negotiation process and is on track for a late summer 2007 
award. Concurrently, the government is conducting an Integrated 
Baseline Review (IBR), which will provide the government with 
additional confidence in the Northrop Grumman scheduling and resource 
allocation process.
    The Ozone Mapping and Profiler Suite (OMPS) Limb instrument will 
measure the vertical distribution of stratospheric ozone with high 
resolution; and it will complement observations from existing NPOESS 
sensors most notably the column and low resolution profile measurements 
from the OMPS Nadir instrument. In response to the climate science 
community, NOAA and NASA recently announced that the OMPS-Limb will be 
re-manifested with the OMPS Nadir onto the NPP in time to meet the 
scheduled 2009 launch date. NOAA and NASA have agreed to equally share 
the cost of restoring the OMPS-Limb onto the NPP spacecraft. The OMPS-
Limb will measure the vertical distribution of ozone and it will 
complement observations from existing NPOESS sensors.

Government Accountability Office (GAO) Recommendations

    I would like to commend the GAO staff for their collaborative 
approach to the NPOESS audits. I appreciate their commitment to 
providing recommendations and findings that will assist the NPOESS 
partners. While official comments have been provided to GAO, I'd like 
to take the opportunity to provide a synopsis of our responses and the 
status of addressing the recommendations.
    The GAO report emphasizes the need to expeditiously complete the 
documentation directed by the Acquisition Decision Memorandum for the 
NPOESS program. The staffs of the three parent agencies have been fully 
consulted during the development of these documents. These Tri-Agency 
documents will be fully executed by late summer. In the interim, 
administration of the NPOESS program and the contract is not being 
adversely affected.
    The GAO report also recommends that the Secretary of Defense delay 
the reassignment of the NPOESS PEO. While I cannot speak for the DOD, I 
can state that the NPOESS PEO position has long been planned to rotate 
between the Air Force and NOAA. As part of this planned rotation, the 
next NPOESS PEO will be a NOAA employee. A selection is planned prior 
to my departure in summer 2007 and is being timed to provide a 
transition period that will facilitate knowledge transfer and ensure 
continuity.
    The GAO report recommends that NOAA address the human capital needs 
for the NPOESS program and that it immediately fill needed positions. 
NOAA has implemented an accelerated hiring model and corresponding 
schedule to fill all NOAA positions identified in the GAO report and 
all positions needed by the NPOESS program. All three agencies are 
working in concert and we have identified the positions to be filled, 
the hiring strategy, and other program human capital needs. Regular 
progress reporting on the status of filling these positions occurs, and 
the NPOESS System Program Director reports at monthly meetings with the 
PEO. NOAA has established a complementary, documented strategy with 
milestones to ensure that all needed positions are filled. We are 
working very closely with the NOAA Workforce Management Office to 
ensure obstacles to the hiring process are identified and addressed 
immediately. The five additional NASA positions were identified as 
needed following the Nunn-McCurdy certification have since been filled.
    The NPOESS Tri-Agency partners are working very hard to ensure the 
actions required to address these recommendations are implemented in a 
timely manner to improve our ability to successfully manage the 
program.

Summary

    In summary, the management changes that were established over the 
last year have taken hold and are working at both the government and 
contractor program management offices. The test program is identifying 
problems and that is just what it is designed to do. We have added one 
of the de-manifested instruments onto the NPP; this type of add-back, 
if continued onto the NPOESS platforms as envisioned by the Nunn-
McCurdy analysis. The NPOESS program will continue instrument 
development to meet the 2009 NPP launch and the 2013 launch of the 
first NPOESS satellite.
    Thank you for the opportunity to speak with you today and I am 
prepared to answer your questions.

            Biography for Brigadier General Susan K. Mashiko
    Brig. Gen. Susan K. Mashiko is Program Executive Officer for 
Environmental Satellites, which includes the National Polar-orbiting 
Operational Environmental Satellite System Integrated Program Office in 
Silver Spring, Md. The NPOESS IPO is a Presidentially-directed unit 
reporting to the Under Secretary of Defense for Acquisition, Technology 
and Logistics, the Under Secretary of Commerce, and the Deputy NASA 
Administrator. NPOESS provides a single national capability to provide 
global environmental data, meeting military and civil operational needs 
of the Department of Defense and Department of Commerce. The NPOESS 
program office develops, acquires and operates space and ground systems 
valued more than $7 billion. This portfolio also includes the 
operations of the Defense Meteorological Satellite Program, which 
provides environmental data to the joint warfighter.
    General Mashiko was born in Glendale, Calif., and entered the Air 
Force as a graduate of the U.S. Air Force Academy where she earned a 
Bachelor's degree in aeronautical engineering. Her career has spanned a 
wide variety of space and acquisition assignments, including Chief of 
the Programs Division in the Office of Special Projects, executive 
officer to the DOD Space Architect and Program Manager for the Atlas V 
Program. She has also served as Director of the Evolved Expendable 
Launch Vehicle System Program, Deputy Director of the NPOESS Program 
and Vice Commander of Air Armament Center.

EDUCATION

1980--Bachelor of Science degree in aeronautical engineering, U.S. Air 
        Force Academy, Colorado Springs, Colo.

1982--Squadron Officer School, by correspondence

1986--Master of Science degree in electrical engineering, Air Force 
        Institute of Technology, Wright-Patterson Air Force Base, Ohio

1993--Air Command and Staff College, Maxwell AFB, Ala.

1998--Master of Science degree in national resource strategy, 
        Industrial College of the Armed Forces, Fort Lesley J. McNair, 
        Washington, D.C.

1998--Senior Acquisition Course, National Defense University, Fort 
        Lesley J. McNair, Washington, D.C.

ASSIGNMENTS

 1.  June 1980-May 1984, Chief, Anti-Satellite Payload Avionics Branch, 
Directorate of ASAT Systems, Headquarters Space Division, Los Angeles 
Air Force Station, Calif.

 2.  May 1984-April 1986, graduate student, Air Force Institute of 
Technology, Wright-Patterson AFB, Ohio.

 3.  April 1986-March 1989, Chief, Systems Implementation Branch, 
Directorate of Applied Technology, Office of Special Projects, Office 
of the Secretary of the Air Force, Los Angeles AFB, Calif.

 4.  March 1989-August 1992, Chief, Programs Division, Directorate of 
Applied Technology, Office of Special Projects, Office of the Secretary 
of the Air Force, Los Angeles AFB, Calif.

 5.  August 1992-June 1993, student, Air Command and Staff College, 
        Maxwell AFB, Ala.

 6.  June 1993-December 1994, special assistant, Space Policy and 
        Plans, Directorate of Space Programs, Assistant Secretary of 
        the Air Force for Acquisition, Washington, D.C.

 7.  December 1994-January 1996, executive officer, Directorate of 
        Space Programs, Assistant Secretary of the Air Force for 
        Acquisition, Washington, D.C.

 8.  January 1996-May 1996, executive officer, Department of Defense 
        Space Architect, Washington, D.C.

 9.  May 1996-August 1997, policy and issues analyst, Secretary of the 
        Air Force Staff Group, Office of the Secretary of the Air 
        Force, Washington, D.C.

10.  August 1997-June 1998, student, Industrial College of the Armed 
        Forces, Fort Lesley J. McNair, Washington, D.C.

11.  July 1998-March 2000, Program Manager, Atlas V Program, Evolved 
        Expendable Launch Vehicle System Program Office, Space and 
        Missile Systems Center, Los Angeles AFB, Calif.

12.  March 2000-May 2002, Deputy Director, Evolved Expendable Launch 
        Vehicle System Program, Space and Missile Systems Center, Los 
        Angeles AFB, Calif.

13.  May 2002-December 2003, Director, Evolved Expendable Launch 
        Vehicle System Program, Space and Missile Systems Center, Los 
        Angeles AFB, Calif.

14.  January 2004-February 2005, Chief, Director's Special Action 
        Staff, Office of the Director, National Reconnaissance Office, 
        Washington, D.C.

15.  February 2005-August 2005, Deputy Director, National Polar-
        orbiting Operational Environmental Satellite Systems Program, 
        Air Force Element, Silver Spring, Md.

16.  August 2005-January 2006, Vice Commander, Air Armament Center, 
        Eglin AFB, Fla.

17.  January 2006-present, Program Executive Officer for Environmental 
        Satellites, Silver Spring, Md.

MAJOR AWARDS AND DECORATIONS

Legion of Merit

Defense Meritorious Service Medal

Meritorious Service Medal

Joint Service Commendation Medal

Air Force Commendation Medal

OTHER ACHIEVEMENTS

1998, John J. Welch Award for Excellence in Acquisition Management, 
        Secretary of the Air Force

1998, Strategic Acquisition Reform Award for Contracting Excellence, 
        Secretary of the Air Force

1999, David W. Packard Award for Acquisition Excellence, Department of 
        Defense

2003, Unit of the Year (Director), Air Force Association

EFFECTIVE DATES OF PROMOTION

Second Lieutenant--May 28, 1980

First Lieutenant--May 28, 1982

Captain--May 28, 1984

Major--Oct. 1, 1991

Lieutenant Colonel--Nov. 1, 1996

Colonel--March 1, 2001

Brigadier General--Sept. 7, 2006

                               Discussion

    Chairman Lampson. Thank you very much. We will now go into 
the questioning, the first round of questions, and I will 
recognize myself for five minutes.

                        Restoring Orphan Sensors

    Dr. Marburger, as you note in your testimony we have 
restored OMPS-Limb to the Preparatory Project. The Limb sensor 
is an important component in monitoring the recovery of the 
ozone layer, which may require collecting data out until 2050. 
Are we prepared to put the full ozone sensor back aboard the 
satellites: according to the information given to the 
Committee, removing them from the program had a $57 million 
impact or affect?
    Dr. Marburger. The short answer to that question, 
Congressman, is yes. We are committed. It is rated as an 
important sensor, and that is the reason it was put back onto 
the NPOESS mission.
    Chairman Lampson. Will be on. Okay. Your report recommends 
doing so. It recommends flying a full OMPS sensor aboard the 
NPOESS satellite in 2013.
    General Mashiko, we have been told that the program office 
will not accept any new instruments for that satellite. Is that 
true?
    Brigadier General Mashiko. The manifest for Charley 1 or 
the first flight version of NPOESS is locked down. Clearly, I 
understand how to take direction, but the reason why we locked 
down the configuration of the Charley 1 bird was to reduce the 
overall risk to that particular vehicle. If you take a look at 
the satellite that flies in the afternoon orbit versus the 
satellite that flies in the early morning orbit, that is the 
most complex. It actually has eight instruments on it, and as 
such it will be the most complex integration. And we are 
clearly biting off the most complex integration. In order to 
assure operational data continuity, which is my driving 
priority, I locked down that configuration. I briefed that, got 
EXCOM concurrence, and I also got the Milestone Decision 
Authority, the Under Secretary of Defense for Acquisition, 
Technology and Logistics, to concur with that recommendation of 
locking down that configuration as soon as possible so that we 
could keep the configuration of that particular satellite as 
simple as possible.
    Chairman Lampson. The United States has obligations under 
the 1987 Montreal Protocol on ozone, and the OMPS-Limb helps us 
meet those obligations. We were assured that NPOESS was 
maintaining the ability to fly these orphan sensors if someone 
else built them and delivered them. The lead time for doing so 
seemed to be about two years before launch. We are six years 
away from NPOESS. Can we or can we not do this?
    Dr. Marburger. There may be confusion about which flights 
the OMPS sensor is being restored to. My understanding is it 
would be restored to the NPOESS Preparatory Project satellite, 
the NPP, not the C1. It is a different satellite and which we 
do understand is locked down. I just wanted to make sure we are 
talking about the same satellite and that there is no conflict 
between my testimony and General Mashiko's.
    Chairman Lampson. But is there not a desire to fly a full 
set of sensors on C1?
    Dr. Marburger. The idea is to minimize data disruption and 
data gaps. We believe that it is appropriate to fly the OMPS-
Limb sensor on the NPP satellite, which will be launched in 
2009. My understanding is that that will address the problem 
that we foresaw with the data for that satellite and that the, 
that obviates the need to fly it on C1.
    If I am mistaken in that, I will be glad to stand 
corrected, be corrected.
    Chairman Lampson. The idea----
    Dr. Marburger. But that is my understanding.
    Chairman Lampson.--from my understanding was to fly another 
sensor on C1.
    Did you want to make a comment, General Mashiko?
    Brigadier General Mashiko. Sir, I would like to make a 
comment. We do--will, in fact, have the OMPS-Nadir sensor on 
Charley 1, which will, in fact, provide the necessary data in 
order to meet the Kyoto protocols.
    Chairman Lampson. If we want to put OMPS 1 back on, can we 
do it?
    Brigadier General Mashiko. Physically, it can be done, but 
it will be done at added risk to the on-time launch of the 
first operational NPOESS satellite, and it is a risk-benefit 
equation.
    Chairman Lampson. And obviously more cost, more time.
    Brigadier General Mashiko. Yes, sir.
    Chairman Lampson. The second priority listed in the January 
report is the Earth Radiation Budget Sensor for it measures how 
much of the sun's radiation gets absorbed by the land. Well, 
let me tell you. I am down to my time. Let me--I am going to 
stop and ask that question in a minute, because I would like to 
get the Ranking Member in with his first round of questions.
    So, Mr. Inglis.

                         Risk of Cost Overruns

    Mr. Inglis. Thank you, Mr. Chairman. Mr. Powner, you said 
that there is some concern about whether this can really be 
done for $12.5 billion. Will you elaborate on that? What are 
the risk factors there?
    Mr. Powner. A couple key risk factors. One would be the 
technical risks associated with key sensors, in particular 
VIIRS.
    Mr. Inglis. Uh-huh.
    Mr. Powner. That is one reason why we might see increased 
costs over time. We have a contract renegotiation coming up 
here in July. There is indications that costs could be higher 
based on that contract renegotiation, and we say that based on 
some preliminary estimates from the contractor that are higher 
than original estimates, which when you combine all that, that 
pushes you over the $12.5 billion threshold.
    Mr. Inglis. Dr. Marburger, General Mashiko, do you have any 
comment on that about those risks? What do you think about 
that, the chance of overruns from here?
    Dr. Marburger. I am certainly not going to argue with GAO 
about risks of cost overruns. These are expensive, high-risk 
projects, and undoubtedly GAO's assessment needs to be attended 
to. Our concern here is that we move ahead with projects that 
are essential for the Nation's weather forecasting capabilities 
and for the science missions, whether they are performed using 
the NPOESS set of satellites or some other satellite approach.
    Mr. Inglis. Uh-huh. General Mashiko.
    Brigadier General Mashiko. Well, I do agree with the GAO 
with respect to the risks. There is something that should give 
yourself and the other Members of the Committee some feeling of 
confidence. There are some major cardinal changes that were, in 
fact, made to the program as part of the restructure, so there 
are fewer unknowns in the program--I guess--is the easiest way 
to look at it. Colonel Dan Stockton, who is the System Program 
Director, and his team laid out a program that took a six-month 
rolling wave--traditional way of operating a program, you only 
have detailed planning for six months--and laid out detailed 
planning from the start of the contract modification all the 
way to the conclusion of the contract. So they know in detail 
everything that needs to be done on the program between now and 
2016. There is no task in that program plan that is longer than 
66 days, and they know it with the assurity by having the right 
people laying out and reviewing those program plans.
    So that should give the Committee some level of confidence 
that while there is still risk associated with the program, it 
is certainly better understood than it ever has been in the 
past.

               Avoiding Cost Overruns for Future Programs

    Mr. Inglis. You know, I guess we could point out that it is 
not unusual for space acquisition programs to experience 
significant cost growth. You know, we have had the Space-Based 
Infrared Satellite and NASA's Webb telescope are a couple that 
were over. Is there something that is systematically wrong or 
any explanation, any thoughts about what the Government should 
be doing to control these costs, or is this just something 
you've got to expect with the first-of-a-kind kind of programs?
    Brigadier General Mashiko. They are looking my direction. 
It is not something that you should necessarily expect, but 
there are certain ground rules that need to be adhered to that 
we used to do in the old days of program management, and that 
is why we often refer to going back to basics. It is truly 
understanding where you stand with respect to technology 
maturation. You don't hold your design review too soon. When 
you put together your initial budgets for a program, you put 
together the initial budgets from the perspective of an 
independent cost estimate rather than a purely program office 
estimate or an agency estimate. You bring somebody else in to 
take a look at what you are doing and give you an independent 
assessment as to what you think it is going to cost.
    And when you do the traditional things like that, the cost 
growths, while they still occur, tend to be smaller, and they 
are not quite as large, and you don't end up in a Nunn-McCurdy 
certification situation as this program did in late 2005.
    Mr. Inglis. All right. Mr. Powner.
    Mr. Powner. If I can just comment, in terms of NPOESS, what 
happened clearly with this, Ranking Member Inglis, is we 
greatly underestimated the complexity with NPOESS. We tried to 
address three agencies' requirements. That is a difficult thing 
to do. Clearly, a lot of the climate requirements have lost 
recently. We are trying to restore those, and you know, when 
you have three agencies involved, we try to put 13 sensors on a 
satellite, that is a lot. The complexity here was huge. I mean, 
one of the things we did with Nunn-McCurdy, the decision was to 
reduce the complexity, and you know, there are winners and 
losers here, and you know, with some of the losers we are 
trying to reinstate that now. But clearly underestimating the 
complexity and trying to do too much was a major misstep with 
this program.
    Mr. Inglis. Dr. Marburger, any thoughts about how we can 
improve on this?
    Dr. Marburger. Well, clearly, many of the climate sensors 
that were de-manifested were added during the growth of the 
program, and one of the reasons that we have asked for 
additional information from NOAA and NASA about alternatives 
other than NPOESS--and not immediately rush to put these 
instruments back on NPOESS--is that we, too, are concerned 
about the complexity that they added to the project and the 
likelihood that putting them back would just cause more 
trouble. So we are looking at a wider range of possibilities 
than simply adding them back into NPOESS. That is why the 
analysis takes a certain amount of time.
    Mr. Inglis. Thank you, Mr. Chairman.
    Chairman Lampson. I thank the Ranking Member.
    We have been called for two votes. We don't know exactly 
how much time. It is probably about five or six minutes 
remaining for the first one. A second vote will come shortly 
thereafter. Probably be 15 to 20 minutes before we get back.
    We will recess to go vote and ask your patience with us. 
Thank you, and we are in recess.
    [Whereupon, at 1:42 p.m., the Subcommittee recessed, to 
reconvene at 2:12 p.m., the same day.]
    Chairman Lampson. The Subcommittee on Energy and 
Environment is reconvened, and we left off in the middle of our 
first round of questions.
    At this time I would recognize Ms. Biggert for five 
minutes.

                           Data Gap Concerns

    Ms. Biggert. Thank you, Mr. Chairman, and my first question 
is for Dr. Marburger.
    I am concerned about the gaps in data that we are currently 
collecting, and this data provides us with a historical content 
that is very important as we try to understand the current 
changes in the weather and the climate. Does the refigured 
program lead to any gaps in the data?
    Dr. Marburger. Well, the--as I understand it, the 
restructuring occurred--Nunn-McCurdy occurred with the data 
continuity as one of the high priorities for consideration. And 
that has also been the highest priority that we have had in 
mind in considering what to do with the sensor capabilities 
that were lost in the restructuring.
    I think it is important to understand that while the 
sensors that are under discussion in this hearing are very 
important, they actually represent a small fraction of our 
climate science and ocean science research capabilities. There 
are many other ways of getting at some of these data. So we 
have to consider it in the context of the literally dozens of 
other Earth-observing satellites. There are approximately 25 
satellites up there that are collecting Earth science data, 
nearly all of which are useful for climate science research and 
some for ocean research and some for solar research and for 
monitoring the space weather.
    So I think perhaps our focus on the instruments on NPOESS 
has been somewhat misleading to the public who may not be aware 
of this vast array of other Earth-observing capabilities.
    So it is primarily because of this complex context of 
capabilities that we have that we asked NOAA and NASA to 
perform these analyses that they gave to us in their white 
paper and are continuing to analyze because we do have other 
opportunities.
    Ms. Biggert. Is it more important, then, to ensure that we 
get the sensors into space to avoid the gaps in the weather and 
climate data that is currently being collected or the sensors 
that collect new weather and climate data, since you say there 
are others. Shouldn't we wait until we find another way to test 
those new ones?
    Dr. Marburger. Well, I think clearly we want to prioritize 
these and we want to make sure that the highest priority 
sensors for covering any potential data gaps are flying, either 
to be re-manifested on subsequent NPOESS missions, the ones 
that are not yet shut down, or on free-flying missions of their 
own. And we are committed to minimizing these data gaps to the 
extent possible, but it has to be done in the context of all of 
these other capabilities that we have.
    But we undoubtedly will have to fly one of these sensors 
that has been de-manifested one way or another, and how we go 
about doing that is what is at issue here. We need to study 
that.

                  Interagency Collaboration: Drawbacks

    Ms. Biggert. Then, Mr. Powner, when this project was 
originally started, it was a weather project, wasn't it? I 
mean, did we have the climate included in that?
    Mr. Powner. Well, weather was clearly the focus, but there 
was climatological information to be provided from NPOESS early 
on. Correct.
    Ms. Biggert. Okay. Do you think that we might have 
proceeded at a faster pace if we had had just one agency that 
was in charge of this?
    Mr. Powner. Well, I think clearly if you look at the 
lessons learned on NPOESS, I mean, you can go back to where 
there was, you know, one of three, one of the agencies didn't 
fully fund it. It resulted in another agency decreasing 
funding. Yeah. Having a single agency program is far less 
complex, not only from some of the administrative and executive 
level management issues, but in terms of trying to meet 
everyone's requirements. That is very difficult. And then when 
you start prioritizing, as an example, you know, we had 55 
environmental data records associated with NPOESS, and we asked 
time and time again what are the priorities, and we were always 
told 55, all 55 were needed. But after Nunn-McCurdy we go down 
to 39, and you even hear discussions now that there are some 
that are more important than others. So there still is a 
prioritization, but everyone wants everything when you have 
three agencies involved, and it makes it very complex.
    Ms. Biggert. Well, doesn't every time they make a change or 
decide something, then three agencies having to go back and 
each of them to make a decision and then come back and see if 
they agreed. It seems that it is such a complex project that it 
would take awhile.
    And would that increase the costs then, too? I mean, was 
that one of the things that made it so much more costly?
    Mr. Powner. Well, yeah. Clearly if you look over time with 
the increase in costs, this started as a $6 billion program, 
and you know, now we are at 12.5, so it is doubled, and that 
was a contributing factor.
    Ms. Biggert. Thank you. I yield back.
    Chairman Lampson. Thank you, Ms. Biggert.
    Mr. Baird, if you are not ready to ask a question, then I 
will give myself five minutes.

                    More on Restoring Orphan Sensors

    Let me go back to what we had talked about toward the end 
of my questioning a while ago. OMPS has two pieces; Nadir and 
Limb. The Nadir piece is intended to go on NPOESS 1. My 
question was: if we wanted Limb to go back as well, and we 
would do, and as I understand General Mashiko's answer, we can, 
but it increases the risk, and that is correct.
    Now, is that just the situation with the first satellite? 
If we ask to put Limb on the other satellites, would there be 
lower risks or higher risks in doing so?
    Brigadier General Mashiko. In a pure sense the risk 
equation--clearly any time you add something to a satellite, 
you have added risk--but what you have the virtue of in Charley 
2, 3, 4, all the subsequent vehicles, you have already built 
one. You have already integrated the most complex, greatest 
number of sensors onto your satellite. So you know what you are 
adding to. So while it increases the risk, it is a smaller 
increase in risk when you add it to the subsequent units when 
you have already flight-demonstrated your first bird.
    Chairman Lampson. Thank you very much.
    The second priority listed in the January report is the 
Earth Radiation Budget Sensor for it measures how much of the 
sun's radiation gets absorbed by the land, by oceans, and by 
atmosphere. Continuity in measuring this is considered so 
important that the report wanted to take our last existing 
sensor and put it on Preparatory Project, put it on the 
Preparatory Project mission. Then build ERPS for the NPOESS 
satellites. Yet according to a presentation at last year's 
Polar Max conference, the team for this sensor is disbanded--
``CERES team at NGST would have to be reconstituted.'' \10\ The 
cost impact of canceling ERBS was $73 million. We are going to 
need this data I think, Dr. Marburger, if we are to understand 
climate change. NASA and NOAA recommend putting it on the first 
NPOESS satellite. What do we do?
---------------------------------------------------------------------------
    \10\ Stan Schneider, ``Non-Manifested Sensors and Planning for Next 
Generation,'' Presentation at the 2006 Polar Max Conference. October 
25, 2006; Silver Spring, Maryland. See slide 18. Accessed from http://
www.ipo.noaa.gov/polarmax/2006/day03/4.4schneiderPolar-Max 
SchneiderFinal.2006.ppt
---------------------------------------------------------------------------
    Dr. Marburger. What do we do with that instrument is one of 
the questions that we have asked NASA and NOAA to give us more 
information on so that we can determine whether it makes sense 
to put it on one of the subsequent NPOESS satellites or on a 
free-flier of its own. Because there are options, obviously, to 
get this data from space missions other than NPOESS, and so the 
question is one of assessing the impact of possible schedules 
stretch--of increasing the risk of NPOESS versus the benefits 
associated with putting it on its own separate mission.
    Those are the kinds of questions that take the experts to 
analyze and the context of all of our other Earth-observing 
missions and give us some advice, and we expect that decisions 
like that will be made in time to inform the budget process so 
that the President can ask Congress for the appropriate funds 
to resolve these questions.
    Chairman Lampson. Why can we fly it on a free-flier if we 
took it off NPOESS because it cost too much? Cost differential? 
Same, more, less?
    Dr. Marburger. We have already heard that the costs of 
NPOESS has escalated. It was multiplied by a factor of two 
since it originally was planned, and indeed, if additional cost 
increases, or worse, the loss of capability for weather 
prediction for the military is a consequence of putting it on, 
then we would certainly consider alternatives at--even at 
significant costs.
    So the cost-benefit equation here has some pretty big 
numbers in it, and indeed it does make sense to consider free-
flying missions for some of these other Earth-observing 
satellites.
    I want to emphasize again the very large number of missions 
that we do fly for Earth observation. We have approximately 25 
active Earth-observing satellite missions at the present time, 
and the NPOESS sensors represent a small portion of our 
capability for making these measurements. So the future of our 
Earth-observing program that supports climate and ocean 
science, it really needs to be considered in a much broader 
context than NPOESS.
    Chairman Lampson. I understand that, but it just seems to 
me that making some of these decisions to, for example, stop 
work on one, cancel it, and then come back and put it, whether 
it is on a free-flier or back in the same place, adds so much 
more money. Why can't we make better decisions the first time 
around?
    Dr. Marburger. Well, I think we have heard that question 
answered before. These are big, high-risk projects, and the 
management of them is very difficult, especially when more than 
one agency is involved. We are talking about big numbers, and 
we are talking about major costs associated with delays and 
lack of access to critical operational data. So in my view it 
is a part of the expense of doing business in this very high-
tech, high-risk game that we are in.
    Chairman Lampson. NPOESS has a history of taking really 
long to make those decisions, and, in my opinion, not following 
the plan that was put together in the first place, and perhaps 
if that plan had been followed on some more of these, perhaps 
there may have been some smaller amount of money spent. I will 
never, ever forget the project that was canceled at Johnson 
Space Center that costs, we made the decision to cancel that 
particular project, and it cost $12 million more to mothball it 
than it would have cost to complete it. And those are the kinds 
of decisions that I think we all ought to be ashamed of and 
make an attempt to do a much better job.
    My time is up, and I now recognize Mr. Inglis for five 
minutes.
    Mr. Inglis. Thank you, Mr. Chairman.

                           More on Data Gaps

    Dr. Marburger, if we could go to that redundancy question I 
think you were just answering from the Chairman and also 
earlier from Ms. Biggert. As soon as redundancy for weather 
observation and for climate change, are there other units up 
there that are gathering both types of information?
    Dr. Marburger. Well, certainly weather information and 
climate information are coupled, and some instruments are dual-
purpose as it were. In fact, even with the loss of the sensors 
in the restructured NPOESS program, there is still a 
significant climate change and ocean research-related 
capability on NPOESS. I would say about half of the climate-
related science capability has been lost in the restructured 
programs.
    But in addition to the NPOESS instruments, both those that 
are retained and restructured programs and those that were 
lost, there are literally dozens of other instruments that we 
have in space, and some on the ground, that are contributing 
data to the overall climate science effort. And that is what I 
was referring to, that we have a large number of satellites. We 
have the GOES\11\ program, which is also weather, and it gives 
climate, but we have a number of other sensors on other 
satellite programs.
---------------------------------------------------------------------------
    \11\ GOES: Geostationary Operational Environmental Satellite.
---------------------------------------------------------------------------
    And this is part of an integrated Earth-observation system 
that the U.S. manages that a number of agencies participate in.
    Mr. Inglis. Sir, there is a recent article that said that, 
I quote, ``Most of the climate instruments needed to collect 
more precise data over long periods of time are being 
eliminated.'' \12\ Your response to that?
---------------------------------------------------------------------------
    \12\ John Heilprin, ``U.S. Cuts Back Climate Checks From Space,'' 
The Associated Press, June 4, 2007; 6:59 P.M. EDT. Accessed at: http://
www.forbes.com/feeds/ap/2007/06/04/ap378087.html (June 6, 2007).
---------------------------------------------------------------------------
    Dr. Marburger. I would say that that is a misleading 
statement. First of all, it is misleading if it is taken to, 
applied to all climate sensors that the U.S. has in space. That 
is totally incorrect. It is only a small fraction of the 
climate science sensors that we fly in our total climate 
science program.
    With respect to the climate science capabilities of 
specifically the NPOESS program, it is probably half right, but 
I would say that, as I said in response to an earlier question, 
my impression is from the briefings that I have had and from 
the reports that I have read that about half of the climate 
science capability of NPOESS has been lost in the 
restructuring.
    Mr. Inglis. Yeah. The Director of Climate Science Watch 
said in that same article, was quoted in that same article as 
saying that, ``We are going to start being blinded in our 
ability to observe the planet.''
    Dr. Marburger. That is a grossly misleading statement. We 
will by no means be blinded in our ability to observe the 
planet by the decisions that were made in the restructuring of 
the NPOESS program.
    Mr. Inglis. And that is because of all the other sensors.
    Dr. Marburger. Right.
    Mr. Inglis. Now, what if time goes on, and we don't meet 
the timelines from here for the launch of these, the new NPOESS 
satellites. Is there enough redundancy with the life expectancy 
of the existing satellites to continue to collect data?
    Dr. Marburger. It would be, it would represent a serious 
problem for NOAA and the Department of Defense if the NPOESS 
mission were stretched out indefinitely. I mean, this is, in 
fact, a very important satellite program. It provides basic 
weather capabilities for operational weather forecasting for 
the National Weather Service and for the military. So it is 
important for NPOESS to survive, and that is one of the reasons 
that such drastic decisions were made to remove these important 
science sensors so that the remaining sensors could be launched 
on time.
    And it is also one of the reasons that we are being so 
careful about making decisions to put things back, recommend to 
put things back on. You don't want to jeopardize those 
fundamental operational missions. We need to have the ability 
to track hurricanes and make weather forecasts for a variety of 
purposes.
    So this is a program that got in trouble. It is very 
important. Priorities had to be set, reconfigurations had to be 
designed, and we are now facing the questions, the problem of 
what do we do next. How do we maintain as much capability as we 
can for these important missions and not lose the essential 
capabilities that NPOESS was designed for.
    It doesn't mean that we are diminishing the science or that 
we don't think that the science is important. Indeed, we do, 
and we are committed to making our capabilities strong enough 
to continue to provide leadership in science, in climate 
science, as we have been.
    Mr. Inglis. Thank you, Mr. Chairman.
    Chairman Lampson. Mr. Baird, you are recognized for five 
minutes.

                Impact on the Earth-observation Program

    Mr. Baird. Thank you, Mr. Chairman. I am interested in the 
interface between the manned missions and the Earth-observatory 
missions, and actually the President's call for eventually 
trying to get to Mars and how that may have impacted some of 
the Earth-observational missions in a variety of possible ways, 
which I will put out but then ask for your comment.
    You could imagine it impacts it budgetarily, you could 
imagine that personnel are drawn from one mission to another, 
you can imagine that the perceived priority for advancement 
status of people working on one project versus another drops as 
some new, more glamorous or politically sexy thing comes in. 
What is--any insights into that, how this manned effort may 
have possibly adversely, or possibly complimentarily, impacted 
this; not just NPOESS but other Earth-observation missions?
    Dr. Marburger. Well, there is no question that NASA 
operates in a pretty tight budget envelope, and in each request 
to Congress for funding for NASA the President, Office of 
Management and Budget, my office, and the agencies get 
together, we try to figure out what is going to work. And I 
must say that it would be easier to do the things that we ask 
NASA to do if Congress did, in fact, fund the requests that 
were made by, as a result of this planning project. It doesn't 
always happen, and it didn't happen this time.
    For example, it would be a lot easier for the NASA 
Administrator to make these tough decisions if he had--if his 
budget were funded according to the plans that were developed 
during the budget process, which are embedded in the 
President's request to Congress. Congress did not fund NASA by 
half a billion dollars within the targets that the President 
had requested.
    So things like that make it difficult. So we always have to 
go back and ask for impact statements and so forth to inform 
the next round of budgeting. But I believe that the American 
people support both space exploration and space science. They 
are exciting. The space science is just as exciting as the 
exploration. We have got these, it is not only photographs, but 
we have got really remarkable information about our universe 
that the American people and people around the world are 
excited about. So we are committed to both. This Administration 
has mapped out a space exploration vision that from the 
beginning was pitched as a step by step, not a----
    Mr. Baird. I am going to interrupt you, Dr. Marburger. I 
hate to do that because----
    Dr. Marburger. Sorry.
    Mr. Baird.--I have a lot of respect for you, but if we 
recap the Administration's mission to Mars, we will not really 
get to the question I asked, and it would be delightful to do 
the other more fun, but the question I really asked was how 
does the very mission you are talking about impact the Earth-
observational programs that we are, that are before us today.
    Mr. Powner, would you care to comment on that or Dr. 
Marburger or General Mashiko?
    Dr. Marburger. Let me add first of all, the NPOESS mission 
was funded through the Department of Defense and the Department 
of Commerce, not NASA. It certainly--NASA--some important space 
weather and Earth-observing missions are funded through NASA 
but----
    Mr. Baird. Yeah. When I said NPOESS, I meant----
    Dr. Marburger.--I believe----
    Mr. Baird.--the broader Earth-observational plan.
    Dr. Marburger. Yeah. I believe that this is not primarily a 
money problem. I believe the problem associated with NPOESS, 
the program we are talking about today, is not primarily a 
money problem. I believe it is a management problem.
    Mr. Baird. Mr. Powner or General Mashiko, any comments on 
that?
    Brigadier General Mashiko. Certainly. To provide some 
insight at a purely tactical level, NASA has been very 
supportive of the program to the extent that while we have ten 
dedicated personnel, NASA-badged personnel working in my office 
or in Colonel Stockton's integrated program office, I have an 
additional 90 people that are supporting the program either 
full- or part-time out of NASA Goddard or out of Headquarters, 
and those people are provided based on being the subject-matter 
experts that we needed to work on either sensors or specific 
types of problems. And those were brought to bear by the chief 
engineer's office as well as the center director out at 
Goddard.
    Mr. Baird. Was there any borrowing? In other words, were 
people moved from this mission or other related Earth-
observational missions to focus on the manned exploration side 
at any point?
    Brigadier General Mashiko. Sir, these people--the areas of 
expertise were primarily in the types of sensors that are 
flying on the polar satellites as well as the GOES satellites. 
So it is that type of background that we are exploiting.
    Mr. Baird. Mr. Powner, any comments?
    Mr. Powner. We clearly did not look in terms of, you know, 
where those folks came from to supplement Colonel Mashiko's 
staff.
    Mr. Baird. I think whether or not the particular issue on 
this particular mission lead to a conclusion that the Moon/Mars 
exploration has impacted Earth observation in this particular 
case may be ambiguous. I don't think it is ambiguous. My read 
of the information is it is not ambiguous in a broader case of 
Earth observation. Would that be a fair statement? In other 
words, that there is fairly--there is a fairly clear potential 
adverse impact of the increased focus on the manned mission to 
the Moon and Mars, and we may choose to make that decision, but 
making that decision has impacts in a finite world with $2 
billion a week going to Iraq, a $9 trillion budget deficit, a 
$450 billion operating deficit, et cetera, et cetera. Is that a 
fair statement that we are making a decision if we pursue these 
manned explorations to other planets to possibly give shorter 
shrift to our Earth observational?
    Dr. Marburger. We always have to have priorities, and if 
there is limited funds, then you have to make priorities in 
each area, and everybody suffers. I believe that both sides of 
the NASA house, the exploration side and the science side, are 
operating under pretty severe budget constraints at the present 
time.
    Mr. Baird. Thank you, Mr. Chairman.
    Chairman Lampson. You are welcome, Mr. Baird.
    I will now recognize Ms. Biggert for five minutes.

                           Project Management

    Ms. Biggert. Thank you, Mr. Chairman. Let me go back.
    Dr. Marburger, you suggested that it was not a money 
problem but a management problem. Is that because of three 
agencies, or is there a different problem?
    Dr. Marburger. I believe that the management issues have 
been outlined pretty well in the reports that you have 
available. The GAO has followed this for a long time, and you 
know, the management of big, technically-advanced programs is 
always difficult. It is hard to know where the technology will 
be by the time you are ready to launch or in the cases I am 
more familiar with, building particle accelerators. You really 
have to guess where the technology will be when you are ready 
to install it. And I think there is a special kind of 
management that goes with technically-intensive projects. This 
is the kind of management that General Mashiko is an expert in, 
and she referred to some of the things that one does in 
managing these types of programs.
    So it isn't just a question of paying attention and keeping 
the books correctly. It is also a question of doing project 
management, to take into account the technical risks that you 
know are going to be there, and to have large contingencies and 
so forth that will prevent surprises.
    Ms. Biggert. Well, as you know, as this progresses, do you 
think then that there should be just one agency involved? And 
if so, which one?
    Dr. Marburger. Now we are getting into a matter of opinion 
here about the management. When it comes to space projects, 
there are two parts. One is the infrastructure associated with 
launching and operating in space, and there is quite a 
substantial infrastructure that is somewhat independent of the 
instruments. The other is the instrumental and scientific 
context. So very frequently you will have an agency like the 
National Science Foundation or the Department of Energy that 
has a project that needs to be launched in space. They almost 
have to work with NASA in order to couple the space expertise 
with the instrumental and science expertise.
    So I believe that we will continue to see projects that are 
managed--that require multi-agency coordination, and we just 
have to learn lessons about how to do that from NPOESS and from 
the other projects, some of which have gone sour, too. We have 
to learn how to do that, because we are going to be doing more 
and more of it as time goes on.

                      International Collaboration

    Ms. Biggert. How would you then characterize the 
international community's interest in remote sensoring, and 
should we be looking at opportunities to engage them with us 
and, again, this would be costs?
    Dr. Marburger. We certainly should be, and one of the 
features of the restructured NPOESS program is to take 
advantage of European weather satellites in two of the orbits 
that were de-manifested. So prior to restructuring, there were 
six satellites in three different orbits associated with this 
program. After restructuring, there were four satellites in two 
orbits, and the third orbit would be provided by the Europeans, 
so that we are already taking into account the possibility that 
other countries will have capabilities that we can use. And we 
absolutely must be building those into our plans, those 
capabilities into our plans.
    Ms. Biggert. Thank you. I yield back.
    Chairman Lampson. Thank you, Ms. Biggert.
    Mr. Diaz-Balart, five minutes.

                                QuikSCAT

    Mr. Diaz-Balart. Thank you very much, Mr. Chairman. I want 
to talk a little bit about the QuikSCAT satellite. I was in the 
Hurricane Center just last week for obvious reasons, and I was 
able to see firsthand--and which I had seen before, the actual 
passes of the QuikSCAT satellite that provides some information 
that frankly, is extremely valuable to, you know, to figure out 
where the centers of the storms are, et cetera. And we all know 
that it was supposed to have a five-year lifespan. It is on its 
eighth year. It may be on its way out. We don't know. And what 
was supposed to replace that was taken out of the ones that are 
supposed to come up shortly, and now the replacement doesn't go 
up to 2016.
    Frankly, that is a little worrisome. Yes, they are looking 
at ways to tap into other satellites, European satellites, but 
what I have heard is that what that satellite provides is 
frankly something that is not totally replaceable with what is 
out there right now.
    And the question is why 2016, if we know that we have a 
satellite that is, you know, on its eighth year of what is 
supposed to be a five-year lifespan. And after knowing that, 
you know, we are in an elevated cycle of storms that about a 
30-year cycle history will show us, and we know the cost of 
those storms, I don't quite understand why that is not a higher 
priority.
    Dr. Marburger. Mr. Congressman, the QuikSCAT information is 
clearly important for tracking hurricanes. We understand the 
importance of that program and are watching it.
    The problems that have been publicized associated with 
QuikSCAT have not appeared in any priority documentation that 
has reached me or my office. My understanding is that the 
satellite continues to be very functional, all of its 
instruments are functioning, it has switched over to a back-up 
telemetry system, which is functioning very well. I presume it 
is at least as robust as the original telemetry system with 
which there was a problem, but it is not, it has not been rated 
as requiring urgent attention at this time. And as soon as an 
agency that has responsibility for this, these types of 
measurements notifies us that it is an urgent priority, we will 
certainly pay attention to it. But it simply hasn't risen to 
that level of priority that we have seen fit to intervene on.
    Mr. Diaz-Balart. If I may, Mr. Chairman.
    Chairman Lampson. Yes.
    Mr. Diaz-Balart. Mr. Chairman, if I may, I bring this up 
because obviously if we were to lose that satellite, that 
capability, it is about a 16 percent reduction in the actual 
forecasting, you know, coverage.
    Chairman Lampson. Right.
    Mr. Diaz-Balart. Or efficiency or whatever you want to call 
it.
    Chairman Lampson. An important piece. Right.
    Mr. Diaz-Balart. Right. Right. Now, if you would be so 
kind, sir, if you would have somebody look into that, because I 
do know, I'm not the smartest guy in the world, but it seems to 
me that if it is a five-year lifespan, and you are on the 
eighth year, and now we are looking at until 2016, I don't know 
how many years you can milk out of something like this. But I 
would like somebody to get back to me and tell me they have 
looked at that. If, in fact, there is absolute confidence that 
it is going to be there, working well until then, and if not, 
what are the alternatives. Because I just, I am a little 
concerned as you can well know, you can imagine, the hurricane 
season comes, and I represent South Florida and the only 
hurricanes we like are the football team from the University of 
Miami.
    Dr. Marburger. Well, despite the fact that this hasn't come 
up in our discussions and briefings, when we heard about the 
concerns we began to look at them. We will get back to you.
    Mr. Diaz-Balart. Great.
    Dr. Marburger.With whatever we find.
    Mr. Diaz-Balart. Great. Thank you, sir. Thank you, Mr. 
Chairman.
    Chairman Lampson. Thank you, Mr. Diaz-Balart.
    I yield myself five minutes.

                      General Mashiko's Departure

    Dr. Marburger, your testimony about management just a 
minute ago obviously referred to also what General Mashiko said 
earlier about it is hard to find talented space people. But is 
that not exactly the reason why she ought to be considered to 
be kept as the director, or as the person over this program, 
rather than changing horses at this time?
    Dr. Marburger. That is not my decision to make. That is the 
Department of Defense's decision. They have the responsibility 
for managing this program, and they are one of the principle 
beneficiaries of the results from NPOESS, and I believe that--
--
    Chairman Lampson. Would you agree with me that is something 
that they certainly ought to consider?
    Dr. Marburger. I have the highest respect for General 
Mashiko's talents, and I wish she were working for me.
    Chairman Lampson. All right. Mr. Powner, would you comment, 
and so would you, General Mashiko, would you, I don't want to 
put you on the spot, both of you. Start with Mr. Powner.
    Mr. Powner. Well, clearly that was one of the 
recommendations in our report. You are at a point in this 
program where there is still a lot of risks involved, VIIRS in 
particular. They need to be aggressively managed. She does a 
very good job holding contractors accountable, picking up the 
phone, talking to executives, with the various contractors and 
subcontractors, getting them to the table. We don't believe now 
is the time to rotate someone like General Mashiko. She does a 
very good job, and an important part of this program is 
continuity of executive leadership. That has been a problem 
leading up to the Nunn-McCurdy issue, and now you have a key 
executive, and you are about to rotate her off. We don't think 
that is wise.
    Chairman Lampson. Thank you. Now I will put you on the 
spot.
    Brigadier General Mashiko. Let me address it a couple ways, 
sir. The upcoming period--because we are going to have the 
program restructured and in place in the beginning of July, is 
going to be primarily execution. Now that there is a--there 
will be a contract in place, so it is going to be primarily 
execution; where you are going to need the critical continuity 
is, in fact, at the program director level. The way you 
separate the area of responsibility, if you will, the program 
director is the one that truly makes the contactor execute on a 
day-to-day fashion. The program executive deals up and out, and 
with respect to my job, which is up and out, clearly sitting 
here and dealing with various other agencies, the Department of 
Commerce has the responsibility to replace me. They have been 
using the standard OPM process in order to do that. They got a 
reasonable number of candidates. They were screened. The 
candidates have, in fact, been interviewed, and as soon as we 
get the EXCOM, all three members on the telephone to do the 
actual ratification of the selection, the name will go forward 
to OPM for approval.
    And I have been informed that we do have a viable candidate 
for my replacement, and so once that happens we will be more 
than happy to let the Committee know who that is, in fact, 
going to be.
    Chairman Lampson. Thank you very much.

                             Program Status

    Is the NPOESS program as currently constituted on track to 
deliver four satellites in orbit to operate between the years 
2013 and 2036--2026, excuse me--for an acquisition cost of 
$11.5 billion, and an additional $1 billion in operating costs?
    Brigadier General Mashiko. Sir, until the contract is 
negotiated, all I can tell you is that is what the plans are. 
At the present time we believe that the program will, in fact, 
meet the total acquisition cost of $11.5 billion with the 
additional billion dollars for operations and support.
    To give you additional confidence and to give myself 
additional confidence, I asked the OSD\13\ cost group who did 
the original independent cost estimate that the Nunn-McCurdy 
was based on, I asked them to do an independent cost estimate 
as to what operations and support will be in the future, and 
the allocation of those dollars and which year should they be 
so that we can do the necessary flow of money to get everything 
correctly lined up.
---------------------------------------------------------------------------
    \13\ OSD: Office of the Secretary of Defense.
---------------------------------------------------------------------------
    So that is in work. That, in parallel with the negotiation 
of the actual modification, will solidify what the final cost 
of the program should be, and then we can then make any 
adjustments to the budget. But any adjustments to the budget 
will be in the out years, not the years of execution.
    Chairman Lampson. Okay. You believe right now it is on 
track?
    Brigadier General Mashiko. Yes, sir.
    Chairman Lampson. I hesitate to ask this. My time is----
    Mr. Powner. Mr. Chairman, can I just add something to that?
    Chairman Lampson. Please.
    Mr. Powner. You know, that is fine that we are making that 
statement, but I just want to be clear that GAO's opinion on 
this, there are still a lot of risks, and until that contract's 
inked, you know, I think we need to remain very cautious with 
that estimate until that contract is solidified. And that is to 
be next month.
    Chairman Lampson. Thank you. I know my time is up. Bear 
with me for just a second, please, because this is a short 
question, and maybe rhetorical.
    The report from NASA and NOAA did not include financial 
data that was necessary--that deal with a lot of this. Along 
the way has anyone been fired or censored because of actions 
that they have taken, or has any contract been terminated? 
Anybody, please.
    Brigadier General Mashiko. Sir, let me ask you what 
timeframe do you mean, and then I will----
    Chairman Lampson. At any time.
    Brigadier General Mashiko. Okay. Let me back all the way up 
to August of 2005. At that point the system program director 
resigned. That was the government system program director. At 
the contractor, the contractor program director was removed. 
Most of his management staff was, in fact, changed at the 
contractor at the Northrop Grumman level. If you go to 
Raytheon, Santa Barbara, which was responsible for the VIIRS 
contract, we have done, over time, almost two full management 
shifts and change-outs in order to find the right management 
team to actually execute the program. As a result we have a 
vice-president out at Raytheon literally running the VIIRS 
program. He is a Navy nuke guy, so he comes from a zero-defect 
kind of background, and that is the type of management rigor 
that has been put in place out at Santa Barbara. The management 
team at Northrop Grumman--what we have done there, in addition 
to doing the change of the program manager--originally that 
program manager was a direct report to the sector president, 
totally bypassing the functionals, if you will, within the 
Northrop Grumman campus. We have changed that such that NPOESS 
is not treated as a normal program, and the functional vice 
presidents at Northrop Grumman are now fully engaged in the 
program, bringing that level of expertise and experience to the 
program as well.
    Chairman Lampson. Thank you very much. Were you responsible 
for most of that?
    Brigadier General Mashiko. Sir, myself and my team.
    Chairman Lampson. I hate to see you go. Thank you for your 
good service.
    I yield five minutes to Mr. Inglis, the Ranking Member.

                  More on General Mashiko's Departure

    Mr. Inglis. General Mashiko, based on your departure coming 
up in a month, I think it is, is there going to be enough time 
for you to bring the replacement up to speed, or is that a 
concern that you have?
    Brigadier General Mashiko. Sir, in all honesty it is going 
to depend on who the individual actually selected is. And we 
will make the necessary adjustments. The Air Force is prepared 
to allow me to split my time in order to do a correct 
transition if it is somebody who is being brought in from the 
outside.
    Mr. Inglis. Right. Because it does sound like, particularly 
based on your last entry, the last question, that there is an 
awful lot of information that you will be taking with you that 
needs to be imparted to your replacement. So I hope there is 
some flexibility on how it is that you will be able to bring 
them up to speed.
    Brigadier General Mashiko. Yes, sir. There is a great deal 
of flexibility with my new boss, and the other thing is, is the 
new job that I am going to I will be spending considerable time 
in the Washington, D.C. area, so that will also facilitate any 
additional overlap that is required after my departure.
    Mr. Inglis. Nice to be so indispensable, isn't it? That is 
a good thing, you know.
    Brigadier General Mashiko. Yes, sir. Job security is a 
wonderful thing.
    Mr. Inglis. I have no further questions, Mr. Chairman.
    Chairman Lampson. Mr. Baird. Five minutes.

                          Technology Transfer

    Mr. Baird. The gentleman from Florida raised an interesting 
issue that highlights a broader question which has to do with 
the research operations process. So you set up, buy something 
for research purposes, you come back with some interesting 
data. How then do you translate that instrumentation or the 
analogs that develop out of that or whatever data you get into 
actual usage, sustainable information feedback? And this 
research to operations gap. Could anybody comment on that and 
what is being done to address that? So we don't just go out, 
find something interesting, and then not actually apply it down 
the road. And sometimes you find something that is not 
applicable, but if you find something useful, what are we doing 
to follow up on that?
    Dr. Marburger. On the science side most of the data 
analyses that lead to discoveries are published in the open 
literature, and that is the medium of communication at the 
basic level that the science community relies on to get these 
ideas out and have them discussed in conferences. And there are 
usually teams of people sometimes from multiple federal 
laboratories and universities that manage these so that they 
appear at conferences.
    Mr. Baird. I have read many of the special issues of 
Science from these very things.
    Dr. Marburger. You know how that works.
    Mr. Baird. I am a long member of AAAS\15\ and subscribed--
--
---------------------------------------------------------------------------
    \15\ AAAS: American Association for the Advancement of Science.
---------------------------------------------------------------------------
    Dr. Marburger. So the next steps are usually rather 
complicated and not terribly well defined. Most institutions, 
both federal labs and universities have technology transfer 
offices that are alert for ideas that their scientists have 
that might be turned into commercially-significant 
applications, and they work with the faculty and or with the 
scientists who protect the intellectual property.
    Mr. Baird. Now, what about NASA and NOAA, that interface? 
You know, you send up a research flight, find something 
interesting. Do you then incorporate that in terms of a long-
term observational system or something stable that becomes part 
of your regular routine?
    Dr. Marburger. When it comes to the instrumentation, 
absolutely. The discoveries that are made, for example, by a 
contractor developing an advanced sensor are typically made 
available to other projects. And I would say that some of the 
technology that we find on our cell phones and our digital 
cameras came from early work and early experience with NASA 
imaging requirements. And particularly from military imagining 
requirements. So we have----
    Mr. Baird. I appreciate, I know there are spin offs in the 
general. I am told that this is a recurring problem or 
perceives to be a recurring problem, that we sort of do one 
slight thing but they don't necessarily translate into long 
term in the NASA-NOAA interface.
    Dr. Marburger. Well, I don't think the NASA-NOAA interface 
is unique. I believe that this problem exists with almost every 
scientific application, but the, you know, what makes the 
communications work is that the scientists and the engineers 
talk to each other about whether there are stovepipes in 
agencies or not. The good ideas do tend to get translated.
    So my view is it is a complex press. There may be cases 
where interagency communications aren't ideal, but in this 
scientific community and the technical community, there is a 
great deal of interchange of ideas.
    I would be glad to respond to it to more specific or 
detailed questions about this because it is an important issue 
that my office watches. And we specifically are charged by 
Congress to do interagency coordination and sometimes it is not 
easy. So if problems arise that you are aware of that you would 
like to have more feedback on or just----
    Mr. Baird. I guess one example I could imagine, you know, 
you build these things and so it is an interactive process. So 
you send up a flight, gather some data. For sure then somebody 
else wants to send their flight up, and they want to gather 
their data.
    Dr. Marburger. Right.
    Mr. Baird. But the question for me is to what extent do 
you--is there a prioritization that says, ``Okay, we sent this 
up. We learned this from this.'' Now, maybe our next test 
flight is not--whoever happens to be next in the queue of 
putting something from the first one we learned permanently 
because, lo and behold, it was actually useful instead of 
having--okay. Shelve that. Publish your special issue of 
Science magazine. We all read it, and--or most people don't, 
but then we go to the next, publish a special issue of Science, 
and somewhere along the line that cumulative benefit gets lost.
    Dr. Marburger. In general that kind of intelligence that is 
brought to the sequence of scientific explorations is provided 
by the scientific community through the National Academies of 
Science, and the decadal surveys and the special reports that 
are commissioned both by NOAA and by NASA are taken very 
seriously by those agencies as they plan their projects and 
programs. And we watch that process at OSTP. We force the 
agencies to come together and make strategic plans together 
that provide guidance for all the agencies that might 
participate in these. And we frequently ask the agencies to go 
to the National Academy or to their own external advisory 
panels of scientists to get advice on what to do next and how 
to take advantage of that data that already exists.
    Mr. Baird. Anyone else care to comment on that?
    Thank you, Mr. Chair.
    Chairman Lampson. Thank you, Mr. Baird.

                       More on Data Gap Concerns

    General Mashiko, GAO states that the cost analysts are 
about 90 percent confident that there will be--that they are 90 
percent confident that there will be no weather coverage gap. 
What is the basis for that confidence?
    Brigadier General Mashiko. Sir, when we went through the 
Nunn-McCurdy process, that was the driving priority, and it was 
the operational data continuity. What we did was in order to 
assure approximately a 90 percent operational data continuity, 
which the GAO refers to, we had to pull risks out of the first 
NPOESS bird in order to increase the likelihood of it being 
able to be launched on the date specified, which is why the 
CMIS\16\ sensor was canceled and taken off of the first Charley 
bird and put on the second Charley bird. Because that was going 
to be the critical path for that, the first operational NPOESS, 
and we needed to get the risk equation down such that we 
increased the likelihood that that satellite would, in fact, be 
able to be delivered and launched when it was going to be 
needed in the afternoon orbit. Because if you take a look at 
the heritage satellites, which are DMSP\17\ in the early 
morning and mid-morning in orbit and then POES\18\ in the 
afternoon orbit, they actually run out of POES in the afternoon 
orbit, and there would be an operational data gap such that we 
wouldn't be able to do standard weather forecasting that we 
have all gotten used to on the Weather Channel, unless we were 
able to get the NPOESS bird up there in the timeframe.
---------------------------------------------------------------------------
    \16\ CMIS: Conical Microwave Imaging Sounder.
    \17\ DMSP: Defense Meteorological Satellite Program.
    \18\ POES: Polar-orbiting Operational Environmental Satellite.
---------------------------------------------------------------------------
    And that is what is generally referred to as the 90 percent 
schedule.
    Chairman Lampson. Mr. Powner, could you comment also?
    Mr. Powner. Well, I think what this, what came out of Nunn-
McCurdy really highlights the importance of staying on schedule 
now. I mean, we have pushed a lot of these birds, extending 
their useful lives. I mean, fortunately, we have been able to 
push off some of the launches of POES and DMSP, but it is 
important from this point forward that we really do stick to 
the schedule going forward so that we may maintain that 
continuity.
    And I think the General brings up a very important 
balancing act here in terms of, you know, what we add to C1 and 
when we lock that down to keep it simple so that we can hit 
that date.
    Chairman Lampson. Okay. The GAO also paraphrases the cost 
analyst as saying that they are highly confident acquisition 
costs will not exceed $11.5 billion, but a lower level of 
confidence that the sensor configuration will remain unchanged. 
The lower level of configuration and the sensor configuration 
suggests to me that the program is prepared to accept further 
changes that will decrease the observational capabilities of 
this satellite system to maintain this budget. Is that the 
case, first, General Mashiko? And then Mr. Powner, would you 
comment?
    Brigadier General Mashiko. Sir, I believe what the cost 
analysts are referring to--to put it very simply, normally I 
always have a program schedule where I have a triangle on it 
that I don't generally publish, and that is the day I shoot the 
engineers, because literally you need to stop doing the 
changes, you button up what you have got, and you go with it. 
Because you are better off getting what you have on orbit and 
getting the utility of out it and then making step wise changes 
or improvements on the next serial number.
    And that is I believe what the cost analysts were referring 
to. It is not a matter of taking sensors off. It is being able 
to make the decision of go with what you have got, get it on 
orbit, and get the end-to-end data chain up and operational. 
And then make step-wise improvements if necessary to subsequent 
serial numbers.
    Chairman Lampson. Mr. Powner.
    Mr. Powner. That is a fine approach to mitigate risks. I 
think the key question, though, going forward, and one example 
is NPP with the preparatory satellites that is currently in 
place. You know, it will fly. The game plan now is to fly it on 
schedule, but it is going to fly in a degraded mode where there 
are certain environmental data records that will not be 
available.
    In particular, the way we measure ocean color and aerosol 
measurement, and what does that mean to users so we can button 
down and hit schedule and that type of thing, but there is an 
impact on users, and that needs to be clearly articulated.
    Chairman Lampson. Well, thank you. Thank all of you very, 
very much. We appreciate your being here and for your testimony 
before the Committee today and at other times.
    The record will remain open for additional statements from 
the Members and for answers to any follow-up questions the 
Committee may ask of the witnesses.
    The witnesses are excused, and the hearing is now 
adjourned. Thank you all.
    [Whereupon, at 3:05 p.m., the Subcommittee was adjourned.]


                               Appendix:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
